<html>
<title> - UNITED NATIONS PEACEKEEPING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                      UNITED NATIONS PEACEKEEPING

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2000

                               __________

                           Serial No. 106-184

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______


                   U.S. GOVERNMENT PRINTING OFFICE
69-536 DTP                 WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE P. RADANOVICH, California     [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
THOMAS G. TANCREDO, Colorado             Samoa
DAN BURTON, Indiana                  EARL F. HILLIARD, Alabama
CASS BALLENGER, North Carolina       BRAD SHERMAN, California
PETER T. KING, New York              WILLIAM D. DELAHUNT, Massachusetts
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
         Jeffrey A. Pilch, Democratic Professional Staff Member
                      Douglas C. Anderson, Counsel
                    Marta Pincheira, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Dr. William J. Durch, Senior Associate, Henry L. Stimson Center..     6
Mr. John Bolton, Senior Vice President, American Enterprise 
  Institute......................................................     8
Mr. Joel R. Charny, Vice President, Refugees International.......    12
Mr. Hasan Nuhanovic, Former translator, U.N. Peacekeeping Force 
  in Srebrenica..................................................    14

                                APPENDIX

Prepared statements:

Hon. Christopher H. Smith, a Representative in Congress from the 
  State of New Jersey, and Chairman, Subcommittee on 
  International Operations and Human Rights......................    42
Mr. John Bolton, Senior Vice President, American Enterprise 
  Institute......................................................    45
Mr. Joel R. Charny, Vice President, Refugees International.......    59
Dr. William J. Durch, Senior Associate, Henry L. Stimson Center..    65
Mr. Hasan Nuhanovic, Former translator, U.N. Peacekeeping Force 
  in Srebrenica..................................................    77

Additional material submitted for the record:

List of current U.N. Peacekeeping operations.....................    80
Executive Summary of the Report on United Nation Peace Operations    82
Introduction to the Report of the Independent Inquiry into the 
  Actions of the United Nations During the 1994 Genocide in 
  Rwanda (``Carlsson Report''), submitted by Hon. Cynthia A. 
  McKinney.......................................................    88

 
                      UNITED NATIONS PEACEKEEPING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2000

                  House of Representatives,
                      Subcommittee on International
                               Operations and Human Rights,
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:30 a.m. in 
Room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith [Chairman of the Subcommittee] presiding.
    Mr. Smith. Good morning. The Subcommittee will be in 
session.
    Today's hearing is about the United Nations peacekeeping 
forces, a review of some of their past successes and failures, 
and some suggestions about what shape they should take in the 
future.
    At the moment, there are 14 separate U.N. peacekeeping 
missions around the world. Some have been in existence for less 
than a year, others for as long as 52 years.
    U.N. peacekeepers are fighting and, sadly, dying in East 
Timor and struggling to protect a cease-fire in Sierra Leone, 
where violence against civilians continues, where hundreds of 
peacekeepers have been held hostage by rebel groups, and where 
open dissent has erupted between various commanders of the 
peacekeeping force.
    Peacekeepers will also be embarking soon on a mission to 
protect international observers being sent to monitor the 
cease-fire between Ethiopia and Eritrea. Even as the use of 
U.N. peacekeepers is expanding, the U.N. and the United States 
have not fully come to terms with the peacekeeping failures of 
the mid-1990's.
    As this Subcommittee has examined in previous hearings, the 
worst of those failures from a humanitarian perspective 
occurred in Rwanda and in Srebrenica in Bosnia.
    In April 1994, Hutu extremists in Rwanda began the 
systematic massacre of that country's minority Tutsi 
population, as well as of many thousands of moderate Hutus who 
refused to participate in the bloodshed.
    For the next 3 months, mothers and their babies were hacked 
to death with machetes. Families seeking refuge in churches 
were butchered inside. Streets, littered with corpses, 
literally ran with blood. By the time the killing ended, 
somewhere between 500,000 and 1 million people had been 
murdered.
    Although it already had peacekeepers on the ground, the 
United Nations failed to take preemptive action to prevent 
these mass murders, and the U.N. refused to take effective 
action even after the killing began. After Interahamwe 
militiamen killed 10 Belgian peacekeepers, the U.N. focused on 
avoiding risk to U.N. peacekeepers, rather than on stopping the 
genocide.
    Notwithstanding pleas for increased assistance with a 
broader mandate by General Dallaire, the U.N. Security Council 
instead voted to withdraw most of the peacekeepers from that 
country. Many informed observers, including General Dallaire 
himself, believed that a modest, strategically placed 
international force could have put a stop to the killing.
    A similarly shameful episode occurred the following year in 
Srebrenica. During four terrible days in July, 1995, an 
estimated 8,000 people were executed by Bosnian Serb soldiers 
who had overrun that United Nations-designated safe haven. The 
victims were unarmed men, and in some cases women and children, 
who had been repeatedly assured that they would not be harmed 
if they surrendered. In some cases, these assurances came not 
only from the killers, but also from the U.N. peacekeeping 
forces, whose mission was to protect the victims.
    But when the moment of truth came, U.N. forces offered only 
token resistance to the Serb offensive. Their military and 
political commanders had redefined their primary mission not as 
the protection of the people of Srebrenica, but as the self-
preservation of the U.N. forces. The peacekeepers became little 
more than observers to genocide.
    Sadly, they also became something other than observers. On 
July 13, 1995, a Dutch blue helmet battalion handed over to 
Serb invaders some 300 Bosnian Muslims who had sought safety 
within the U.N. compound. They watched as the men were 
separated from the women and children, a process already well 
known as a sign that the men were in imminent danger of death. 
These men were never heard from again.
    It is my earnest hope that these examples will never be 
surpassed as the darkest days in the history of U.N. 
peacekeeping. The mistakes of Rwanda and Srebrenica must not be 
repeated.
    Today, there is a general agreement that there have been 
and still are serious problems with U.N. peacekeeping, but the 
more difficult, unresolved questions are: What exactly are 
those problems, and how should they be fixed?
    One set of answers were proposed last month by the Panel on 
United Nations Peace Operations convened by Secretary General 
Kofi Annan. The panel's report, also known as the Brahimi 
report, identifies ``serious problems in strategic direction, 
decision-making, rapid deployment, operational planning and 
support, and the use of modern information technology.''
    It also admits moral failures, such as the U.N.'s past 
``reluctance to distinguish victim from aggressor,'' as 
occurred in Rwanda and Srebrenica. In response, the Panel 
proposes a renewed commitment to peacekeeping on the part of 
member states, significant institutional change, and increased 
financial support. It emphasizes the need for stronger ties 
between peacekeepers and peace-builders from civil society in 
the areas where U.N. forces are deployed. It calls for robust 
rules of engagement and for ``bigger forces, better equipped 
and more costly but able to be a credible deterrent.''
    It highlights the need to streamline the logistics of 
deployment. It also emphasizes the importance of clear, 
achievable mandates. But the bottom line solution proposed by 
the Brahimi report seems to be ``more": more resources, more 
power, and more autonomy for U.N. peacekeeping efforts.
    Other advocates urge changes beyond those envisioned by the 
Brahimi report, including the creation of a standing U.N. rapid 
reaction peacekeeping force. They assert that prompt, forceful 
action would help deter the worst humanitarian costs of many 
crises. They point to the fact that past U.N. deployments have 
been too little, too late, and that past multinational forces 
have lacked cohesion, efficient coordination, and a unified 
chain of command.
    They argue that a standing U.N. force is the best way to 
correct these deficiencies. However, because of the serious 
problems of sovereignty and accountability posed by such a 
freestanding military entity, both the current Administration 
and many Members of Congress have opposed the rapid deployment 
force concept.
    Still other experts question whether U.N. forces are 
competent, either legally or militarily, to enforce the 
unstable peace that exists in the regions where many 
peacekeepers are deployed.
    They warn that by injecting international peacekeeping 
forces into circumstances where there is no preexisting peace, 
we are entangling ourselves in an expensive, dangerous, and 
potentially endless morass.
    Furthermore, they note that the robust military engagement 
contemplated by the Brahimi report and the standing force 
concept are less like peacekeeping than like making war--a 
prerogative properly exercised by sovereign states, not by the 
U.N.
    I am happy to note that we have before us today capable 
experts representing each of these viewpoints, as well as one 
witness who speaks from personal experience of the tragedies 
that result from peacekeeping failures.
    I hope that our witnesses will propose answers to a number 
of important questions: How should U.N. peacekeeping be 
reformed and improved? What is the proper competence of a U.N. 
peacekeeping force, both legally and operationally? What role 
should the United States and the U.N. Security Council play in 
initiating, directing, and supporting U.N. peacekeeping 
activities? And, finally, how should we balance our proper 
concerns about United States sovereignty and strategic 
interests with our moral obligations to act when innocent 
peoples are threatened with unspeakable evil and extermination?
    I would like to yield to my very good friend and colleague, 
the Ranking Member of our Subcommittee, the gentlewoman from 
Georgia, Ms. McKinney, and thank her for her leadership on the 
issue of peacekeeping and for suggesting today's hearing.
    Ms. McKinney. Thank you very much, Mr. Chairman. I want to 
thank you for calling this very important hearing. I want to 
thank our witnesses for coming to enlighten us on this very 
important subject.
    We are looking today at the future of the United Nations. 
Our witnesses have specific visions for our world and the 
United Nations. Mr. Nuhanovic represents a group of people who 
must not be left behind as we pursue our common vision of the 
United Nations.
    The United Nations is a very important development in the 
course of human events. The creation of the United Nations, and 
now, recommendations arising from the Brahimi report, are high 
water marks in human development and organization.
    Today, however, the U.N. proposes having a ready reservoir 
of able men and women willing to go to places near and far to 
achieve the objective of peace. That is a laudable mission, but 
the question we must analyze is the ability of the U.N. to 
achieve that mission.
    The United Nations is supposed to be a force for good in 
the world, and this principle is enshrined in its charter. 
However, before I place more authority and responsibility in 
the hands of the United Nations, I have many questions that 
remain unanswered. I hope this hearing today will help me begin 
to answer those questions so I can lend my support to the U.N. 
in its efforts to become more adept at policing the world and 
protecting all of us from nefarious and deadly characters.
    I have asked representatives from survivors in Rwanda and 
Srebrenica to present testimony today because they know the 
horrors of a peacekeeping effort gone bad. I regret the 
decision of the government of Rwanda to deny my request for a 
witness. The survivors know that all the best intentions in the 
world don't bring relatives back. They know, too, that all the 
best intentions in the world don't help survivors of an effort 
gone awry.
    I was recently alerted that a Bosnia woman who had survived 
the horrors of Srebrenica and who had been relocated to 
Missouri committed suicide because she could not cope with a 
new language, a new culture, isolation from her accustomed 
environment, no safety net to provide a smooth transition to 
immigrant life in America.
    What went wrong with this peacekeeping operation and its 
aftermath? What went so wrong that would allow a city to be 
destroyed, its survivors to be scattered like chaff around the 
world, leading this one desperate woman to kill herself? Could 
the United Nations have done something to prevent the double 
victimization of this woman, the double victimization of its 
survivors? What are the responsibilities of the U.N. to these 
families?
    For the first time in its history now, United Nations 
peacekeeping troops have been directly implicated in the crimes 
of genocide and in crimes against humanity. The Kavaruganda 
family lives daily with the fact that the Supreme Court 
Justice, His Honorable Joseph Kavaruganda, of Rwanda was under 
the protection of U.N. peacekeepers at the time of his handover 
to the presidential guard for his murder. U.N. peacekeepers 
then stood by drinking stolen beer and watched as his wife and 
daughter were tortured by Rwandan soldiers.
    Mr. Chairman, I have testimony about this episode from the 
United Nations Carlsson report on Rwanda, which I would like to 
submit for the Record.
    [The information referred to is available in the appendix.]
    Ms. McKinney. Hasan Nuhanovic lost his family as U.N. 
peacekeepers turned over 7,000 Bosnians to the Serbian Army for 
the slaughter of men and young boys. We know that this happened 
because of our witnesses and their insistence that the United 
Nations tell their story.
    After reviewing the evidence submitted by the prosecutor, 
Judge Riad confirmed the indictment of Karadzic and Mladic, 
stating, ``After Srebrenica fell to besieging Serbian forces in 
July, 1995, a truly terrible massacre of the Muslim population 
appears to have taken place. The evidence tendered by the 
prosecutor describes scenes of unimaginable savagery: thousands 
of men executed and buried in mass graves; hundreds of men 
buried alive; men and women mutilated and slaughtered; children 
killed before their mothers' eyes; a grandfather forced to eat 
the liver of his own grandson.''
    These are truly scenes from hell written on the darkest 
pages of human history. The United Nations was forced to write 
two reports which now tell the world of its gross failures and 
complicity in these great crimes, but the United Nations has 
not lifted one finger to help these and other survivors of U.N. 
peacekeeping atrocities.
    In East Timor, the United Nations Special Representative 
issued an apology for not acting during the razing of Dili 
during and after the independence referendum. Who will rebuild 
East Timor?
    Secretary General Kofi Annan has said that heads of state 
and world leaders must not be allowed to hide behind their 
sovereign immunity, and that they must be prosecuted for their 
complicity in genocide, in crimes against humanity. The 
Secretary General remains mute on the responsibility of the 
United Nations to survivors entrusted in its care.
    The loved ones of our witnesses were under the direct care 
of United Nations peacekeeping troops. But those troops 
abandoned the people they were sent to protect and left them to 
be brutally murdered. Shouldn't the U.N. voluntarily live up to 
its own standard for heads of state and world leaders and be 
held accountable for its own participation in genocide and 
crimes against humanity?
    The United Nations issued four apologies in 6 weeks for 
Rwanda, Srebrenica, East Timor, and Kosovo. Sierra Leone and 
Cambodia I presume will be next. In Sierra Leone, Medecins Sans 
Frontieres recently struck out at the U.N. When the entire town 
was abandoned by U.N. peacekeepers and RUF was allowed to go in 
unhampered. Sierra Leoneans were forced to flee the RUF with 
intravenous tubes dangling from their bodies because of the 
collapse of the U.N. peacekeeping effort.
    In 1991, Cambodia had one AIDS patient. In 1993, they had 
three. Now they have almost 200 new infections every day. 
United Nations peacekeepers are alleged to have infected 
thousands of Cambodians as they performed their duties in 
UNTAC's peacekeeping operation in Cambodia.
    Will the U.N. do HIV testing on their recruits? How will 
they repair this damage done to innocent Cambodians? Does the 
U.N. care?
    The United Nations will acquire more and more power and 
authority to act on our behalf, but will the U.N. have 
transparency in its operations, and will the victims of its 
failings be able to hold the U.N. accountable?
    More importantly, will governments be able to give big 
contracts to their friends and escape scrutiny by the public 
and people like us in Congress by allowing the U.N. to do in 
peacekeeping and policing what governments previously did?
    Probably the more important question is, how will the 
United Nations prevent itself from being used by other 
countries for their own purposes and thereby subverting the 
U.N. mission? Many assert that this is exactly what was done by 
the United States in Rwanda, in Srebrenica, in Iraq, and in 
East Timor.
    I have read the Brahimi report and I have many questions. 
NATO has set an important precedent by admitting and paying 
damages to a family that was able to prove that it was NATO 
bombs that destroyed their home. NATO stands above no law.
    I would like to once again thank the witnesses for 
appearing, and I look forward to their testimony.
    Mr. Smith. Thank you, Ms. McKinney.
    Mr. Delahunt.
    Mr. Delahunt. No opening statement, thank you.
    Mr. Smith. Let me present the four witnesses, beginning 
first with Dr. William Durch, a Senior Associate at the Henry 
L. Stimson Center, and who recently served as project director 
for the Panel on United Nations Peace Operations, whose report 
was issued last month, and the former Assistant Director of the 
Defense and Arms Control Studies Program at the Massachusetts 
Institute of Technology. Dr. Durch presently teaches courses on 
international peacekeeping at Georgetown University.
    Next we will hear from John R. Bolton, who has served as 
Senior Vice President of the American Enterprise Institute 
since the beginning of 1997. Previously, Mr. Bolton served as 
Assistant Secretary of State for International Organizational 
Affairs in the Bush Administration, as well as the Assistant 
Attorney General in the Civil Division of the Reagan 
Administration. During the early 1980's, he served as General 
Counsel and as Assistant Administrator for Program and Policy 
Coordination at the U.S. Agency for International Development.
    Next we will hear from Joel Charny, who has served as Vice 
President of Refugees International since July of this year. 
Previously he worked in Cambodia as a Deputy Program Manager 
with the U.N. Development Program, UNDP. Before that, Mr. 
Charny worked for 16 years with Oxfam America. A graduate of 
Harvard Graduate School of Education, Mr. Charny has written 
numerous articles on humanitarian issues.
    Finally, we will hear from Hasan Nuhanovic, who was 
formerly a translator for the United Nations protection force 
in Srebrenica. Members of his own family have not been seen 
since they were turned over to Bosnian Serbs by U.N. 
peacekeeping forces in July 1995. Since that time, Mr. 
Nuhanovic has investigated the fate of thousands who were 
turned over to Serb forces and the possible complicity of U.N. 
forces in those disappearances.
    Dr. Durch, if you could begin.

 STATEMENT OF DR. WILLIAM J. DURCH, SENIOR ASSOCIATE, HENRY L. 
                         STIMSON CENTER

    Mr. Durch. Thank you, Mr. Chairman, for the invitation to 
testify at this hearing on U.N. peacekeeping.
    I am a Senior Associate of the Henry L. Stimson Center here 
in Washington, and recently served as Project Director for the 
Panel on U.N. Peace Operations. I am speaking here in my 
personal capacity, however, not for the U.N. nor for the Panel. 
I will be summarizing my prepared statement.
    After the disasters of the mid-1990's, which both you and 
Ms. McKinney spoke about, there was an opportunity, breathing 
space to correct the more obvious problems with U.N. 
peacekeeping, but there seemed to be little interest on the 
part of member states to invest more time and money in what 
many assumed to be a failed enterprise. The tears in the fabric 
of U.N. peacekeeping were left largely unmended.
    Then last year, the U.N. was suddenly called upon, in rapid 
succession, to administer Kosovo under the protection of NATO 
ground forces; and then to replace Australia-led INTERFET and 
launch a new government for East Timor; then to replace 
Nigeria-led ECOMOG in Sierra Leone to implement a deeply flawed 
peace accord that the U.N. did not negotiate; then to oversee a 
shaky cease-fire in the vast Democratic Republic of Congo. The 
elements of the U.N. Secretariat responsible for peacekeeping 
were at this time underfunded, understaffed, unprepared to run 
a country. Consider the headlines had they been foresighted 
enough to try to prepare.
    Clearly, something needed to be done to better match U.N. 
capabilities to the operational tasks once again being handed 
to the organization, the basic choice being either to do these 
operations right or not do them.
    The twin assumptions of the mid-1990's that the U.N. would 
not again be called upon to undertake tough missions and that 
regional organizations could handle all elements of such 
missions seemed to have been invalidated by the resurgence of 
1999-2000. Better, then, that the U.N. be prepared; that the 
Security Council better understand what the U.N. is and is not 
capable of doing; and that new missions reflect that 
understanding.
    The Panel's report advocates this latter course. The report 
emphasizes that the U.N. Secretariat is in no position to raise 
or command a warfighting force. At the same time, unless U.N.-
flagged forces deployed to implement accords ending internal 
conflicts can defend themselves--and the peace they have come 
to implement--against the opponents of peace and the well-armed 
criminal gangs who spring up in the wake of war, their 
deployment is pointless.
    Thus, while the report rightly leaves warfighting to 
states, it urges member states to collaborate among themselves 
to make better trained, more capable forces available to U.N. 
operations.
    The report recommends that the Secretariat plan for 
realistic worst case scenarios and be given the capacity to do 
so, and recommends that the Secretariat dispatch teams to 
assess whether troops offered to a U.N. operation meet 
specified high standards of training and equipment, and that 
the Secretary General decline to accept contingents that fail 
to meet those standards.
    But even if troops offered to a U.N. operation are well-
trained and well-equipped, that operation should not go ahead 
unless they are offered in sufficient quantity to meet 
anticipated operational challenges. That is, for any given 
operation, the size of the operating area imposes its own 
requirements and constraints on U.N. or any other peace 
operations, which figures 1 and 2 in my submitted testimony 
help to illustrate.
    Most big states that fall prey to internal conflict will 
remain beyond the reach of peacekeeping, whether U.N.-run or 
regionally-run. To date, even coalitions of the willing have 
addressed themselves to fairly small places.
    If international remedial efforts can only be applied in 
such places, a few at a time, then the international community 
must place greater emphasis on conflict prevention if the need 
for peace operations is to match either the U.N.'s or regional 
organizations' capabilities to keep or restore peace. By that, 
I really mean long-term prevention.
    Such operations have been given a wide variety of tasks 
over time; some easier, some harder. Monitoring international 
borders is a relatively simple task compared to establishing a 
safe and secure environment in the aftermath of civil war.
    The tasks assigned to post-Cold War operations have been 
mostly of the harder, more complex variety. Complex peace 
operations have explicitly political tasks, and deploy in the 
aftermath of conflicts that nobody has won, conflicts that are 
really unfinished. If they are skilled, tough, and lucky, the 
outsiders will help to shift those conflicts from the 
battlefield to the political arena, breaking the cycle of armed 
conflict under the protective umbrella of peacekeeping forces.
    That is, peacekeeping, the maintenance of a secure 
environment, and peace-building, all the other tasks that an 
operation undertakes to implement a peace accord, are 
inseparable functions. The objective of peace-building is not 
to remake a society, but to give the members of that society a 
shot at remaking it themselves. Such peace-building, which aims 
at a self-sustaining security environment, is a necessary 
component of the peacekeepers' exit strategy.
    To summarize, the report argues that it is better to choose 
carefully, go in strong, and draw down than to go in weak and 
build up. National militaries, disaster relief teams, and other 
crisis response entities cannot function without preparedness, 
and neither can the United Nations. Preparedness costs money, 
but in a pinch, the lack of preparedness costs even more.
    Thank you.
    [The prepared statement of Mr. Durch is available in the 
appendix.]
    Mr. Smith. Dr. Durch, thank you very much for that 
testimony.
    Without objection, yours and all the other witnesses' full 
statements will be made part of the record, as well as the 
attachments that my good friend, the gentlewoman from Georgia, 
had asked to be made part of the record.
    Mr. Bolton.

   STATEMENT OF JOHN BOLTON, SENIOR VICE PRESIDENT, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Bolton. Thank you very much, Mr. Chairman. It is a 
pleasure to be here today. I, too, would like to discuss the 
Brahimi report. If I could, I would just like to put it in 
context first.
    I think the Brahimi report follows logically from the past 
8 years of the current Administration's peacekeeping policy. 
When they came into office, they announced a new doctrine they 
called ``assertive multilateralism.'' I was never quite sure 
what assertive multilateralism meant, but it is pretty clear 
from the historical record that the principal experiment in 
that doctrine was intended to and in fact did take place in 
Somalia.
    In 1993, when she was permanent representative to the U.N., 
Mrs. Albright said, with respect to one of the key Security 
Council resolutions on Somalia, and I quote now, ``With this 
resolution, we will embark on an unprecedented enterprise aimed 
at nothing less than the restoration of an entire country as a 
proud, functioning, and viable member of the community of 
nations.''
    The policy, for a lot of different reasons that we don't 
have time to go into this morning, failed in Somalia with the 
tragic death of 18 Americans. The rhetoric of assertive 
multilateralism disappeared from the Administration's speeches, 
but it did not disappear from their policies. Indeed, as 
written in PDD 25, the peacekeeping decision directive, even 
whether or not followed, that notion of assertive 
multilateralism continued. It has widespread support in many 
circles in New York. In fact, I think it was the doctrine of 
assertive multilateralism that led the Secretary General to 
create the Brahimi Commission, and I think the doctrine informs 
virtually all of its conclusions and recommendations.
    I note to begin with that some of what the Brahimi report 
says is unquestionably correct. In fact, they make one point, a 
very courageous statement, where they say that sometimes in the 
past political compromise has led to confused mandates for U.N. 
peacekeeping forces.
    They say, and I am quoting the report, ``Rather than send 
an operation into danger with unclear instructions, the Panel 
urges that the Council refrain from mandating such a mission.'' 
I think that is a good and important lesson. It is sad that the 
Brahimi report did not carry through that logic in other 
contexts.
    It is important, as Congress begins to consider the Brahimi 
report, and the issue I am going to address, is what American 
foreign policy should be with respect to U.N. peacekeeping 
operations. I do not think for us this is an abstract 
discussion of what the best looking U.N. peacekeeping structure 
should be. I think our issue is what is in the best interests 
of the United States.
    Let me very quickly run through a couple of major respects 
of the Brahimi report that I think are badly flawed from that 
perspective. The Brahimi report takes a nod in the direction of 
principles that underlie successful U.N. peacekeeping missions: 
the consent of the parties, neutrality of the U.N. force, and 
limited rules of engagement, rules of engagement confined to 
its own self-defense.
    Then it proceeds basically to write those three heretofore 
successful preconditions out of its report. It talks about 
circumstances where the consent of the parties can be 
manipulated. What it is really talking about is a situation 
where there is no true peace, where the parties in fact have 
not given their consent.
    I would suggest that in Sierra Leone today we have exactly 
an example of that kind of problem.
    Second, the Brahimi report takes the notion of impartiality 
and applies it not to the parties to the conflict, but in a 
very, if I may say so, abstract sense to neutrality and 
impartiality in the context of the U.N. charter. It talks 
expressly about taking moral sides in conflicts, which may be 
appropriate at some points, but which I would suggest to you, 
in some conflicts around the world, it is very hard to find out 
where the white hats are and where the black hats are.
    Finally, although the report does state modestly that the 
U.N. does not wage war, it then proceeds to contradict itself 
on that point as well. In what I think is really the most 
intellectually dishonest part of the report, it really is 
talking about a U.N. capability to engage in combat; not simply 
the self-defense of its own forces, but with the ability and 
determination to defeat what it considers to be enemies of the 
mission. This is not peacekeeping, this is war. I think it is 
just a mistake for us or for any decision-makers not to 
understand the consequences of confusing that doctrine.
    There is another, I think, very important political point 
here. The Brahimi report found in its specific discussion of 
preventive diplomacy, in many of the recommendations it makes 
for the beefing up of the capabilities of the U.N. Secretariat, 
its information-gathering capabilities, what in Washington we 
call its intelligence-gathering capabilities, and in its 
analytical capabilities generally.
    I think that we have made a mistake over the past several 
years in the extent to which we have provided intelligence 
information to the United Nations. I make no bones about saying 
that when it is in the best interests of the United States to 
provide sensitive intelligence to the United Nations, we should 
do it, but we should not do it as a matter of course, and we 
should not under any circumstances permit the United Nations to 
develop its own autonomous intelligence-gathering capability. 
Its analytical skills should be really things that we can call 
on as necessary.
    Mr. Chairman, there are a number of unrealistic 
recommendations in the report on the so-called peace-building 
side of things. I think as the failure of nation-building in 
Somalia showed, the ability of external actors to create a 
functioning civil society in failed states is really quite 
limited.
    A little humility would do us all good here in assessing 
exactly what responsibilities we should assign the United 
Nations. Just as I think in this country there is a broad 
consensus that it is not the government that builds our Nation, 
it is the people, so, too, in international matters, it is not 
the United Nations or external observers who are ultimately 
going to build civil society in troubled states, it is the 
people who live there themselves.
    Finally, Mr. Chairman, one last specific point on the 
Brahimi report. All of the recommendations about increased 
capacity and increased resources are written in the context of 
increasing the Secretariat's capabilities. Completely ignored 
in this report is the role of the Military Staff Committee 
which is set up by the Charter.
    We are all very familiar with the fact that the Military 
Staff Committee, gridlocked by the Cold War right from the 
start, has never functioned, but, Mr. Chairman, the Charter is 
unambiguous when it comes to military activities. It is the 
Military Staff Committee that is established to advise and 
assist the Security Council on all questions relating to the 
Security Council's military requirements and so on.
    If a decision is made to go ahead and implement large 
chunks of the Brahimi report, it seems to me that there is a 
very conscious and very clear effect on the United States and 
the other permanent members of the Security Council if 
responsibility for these military and quasi-military operations 
is vested in the Secretariat and not in the Military Staff 
Committee, which is the principal arm of the Security Council, 
which is to say, us, in overseeing the U.N.'s military affairs.
    So I think, quite apart from all of the specific defects in 
the Brahimi report, this is no accident that the Military Staff 
Committee is not mentioned. This is no accident that all of 
this additional support is to be given to the Secretary General 
and not the arm of the Security Council. I think that alone is 
grounds to reject the Brahimi report's conclusions.
    The Brahimi report says very explicitly that if its 
recommendations are not enacted, and I am quoting again from 
the report, ``The Secretariat will remain a reactive 
institution, unable to get ahead of daily events.'' Let me just 
say, Mr. Chairman, from the point of view of United States 
foreign policy, I believe the report is correct when it says 
the Secretariat is a reactive institution. I believe that from 
the American point of view, it should remain a reactive 
institution. The movers in the United Nations, the movers in 
the Security Council, are the members, and particularly the 
five permanent members. Let us be very clear, it is 
particularly the United States. We want the Secretariat to 
react. We know how to do it. I don't think they should be 
acting on their own.
    Finally, Mr. Chairman, I conclude with a little study in my 
testimony of the ongoing U.N. role in the dispute between 
Ethiopia and Eritrea, because I think in this current 
peacekeeping operation we see an example of exactly what I have 
just described as the erroneous conclusions in the Brahimi 
report itself.
    I believe that the conflict between Ethiopia and Eritrea is 
a classic threat to international peace and security in the 
language of the charter. I believe that it is entirely 
appropriate for the United Nations to take the role that it 
has. I think it is entirely appropriate to deploy observers in 
that conflict to monitor the cease-fire and the other terms of 
the agreement that has been reached between Ethiopia and 
Eritrea.
    Where I disagree emphatically with what the Secretary 
General has recommended is in the deployment of three foreign 
country battalions, which he justified in an interview with the 
Washington Post, saying that this is part of his effort to 
transform peacekeeping into something else, and as he said, 
``to go prepared for all eventualities, including full 
combat.''
    I don't think three battalions or even many more are going 
to stop war breaking out again between Ethiopia and Eritrea. I 
think the observers that have been recommended, a total of 220, 
are sufficient. If it is not, I would be willing to see an 
increase in the number of observers. It is enough to know 
whether the cease-fire is holding and where the other terms are 
being met. But the idea that a size force as he has recommended 
with these other three battalions is enough to engage in peace 
enforcement I think is both wrong, and I think it undercuts the 
vital role of the observers.
    Here is the key question for decision-makers, Mr. Chairman. 
In the end, in the end, if the Ethiopians and Eritreans are not 
willing to uphold their own peace, what other nationality is 
prepared to kill and die for it?
    Mr. Chairman, I think that your calling this hearing is an 
important step in the Congress' consideration of the Brahimi 
report and in peacekeeping. I appreciate your inviting me. I 
would be pleased to answer any questions you or the Committee 
may have.
    [The prepared statement of Mr. Bolton is available in the 
appendix.]
    Mr. Smith. Thank you very much, Mr. Bolton.
    Mr. Charny?

     STATEMENT OF JOEL R. CHARNY, VICE PRESIDENT, REFUGEES 
                         INTERNATIONAL

    Mr. Charny. I would first like to thank the Chairman of the 
Subcommittee on International Operations and Human Rights, 
Representative Christopher Smith, for providing the opportunity 
for Refugees International to testify on the issue of U.N. 
peacekeeping, one of the most critical issues facing the world 
today.
    As presently organized and as we have heard, there seems to 
be a consensus that U.N. peacekeeping is not working. The 
starting point for Refugees International is the fate of the 
most vulnerable, the mainly women and children who are caught 
in conflicts.
    The failure to act, as in Rwanda and the eastern Congo from 
1994 to 1996, or the ineffectiveness of the response, as in 
Sierra Leone earlier this year, have led to unnecessary deaths 
numbering in the hundreds of thousands.
    More unnecessary deaths are in the offing in the eastern 
Congo or along the border between Ethiopia and Eritrea because 
the machinery of international peacekeeping is shamefully 
inadequate. It is inadequate because it is slow. The time from 
Security Council authorization to deployment averages 6 months.
    It is inadequate because the forces deployed have neither 
trained together nor used common equipment, leading to chaos in 
the field. It is inadequate because the forces are feeble, not 
powerful enough to intimidate even the poorly armed thugs who 
often make up the primary security threat to humanitarian 
relief operations, and it is inadequate because the forces have 
lacked a clear mandate and a unified command.
    Refugees International has concluded that the most 
effective way to address these weaknesses would be the creation 
of a rapid reaction force, or RRF. An RRF might consist of 
5,000 to 10,000 elite volunteers from around the world. They 
would live and train together, follow the same doctrine, use 
the same equipment, answer to the same chain of command, and be 
ready for dispatch with a few days notice.
    A rapid reaction force would give the international 
community a sharp instrument to project military and police 
power quickly and effectively. The RRF, or part of it, could be 
deployed for a multitude of purposes: To prevent or mitigate 
conflicts, protect noncombatants and humanitarian aid workers. 
We have just in the last week or 10 days had four UNHCR workers 
killed, three in Timor, one in Guinea. Again, it begs the 
question of why humanitarian aid workers are putting their 
lives at risk in a situation where security is not being 
adequately provided.
    An RRF could also supervise cease-fire agreements and 
police refugee camps.
    Let me stress that the RRF should be a standing force. At 
present, to form a peacekeeping force, the U.N. collects troops 
from all over the world and attempts to make them into a 
professional peacekeeping force on short notice. The existence 
of a standing, highly professional elite force would enhance 
greatly the speed and quality of the deployment and reduce the 
possibilities for mission failure.
    The personnel of a rapid reaction force should be recruited 
internationally to the highest standards. However, to try to 
limit the influence of politics, and in keeping with informal 
agreements that underlay the original U.N. peacekeeping 
deployments in the 1950's, perhaps citizens of permanent 
Security Council members should not be permitted or recruited 
to serve. The RRF would be an independent entity of the 
Secretariat for missions enacted by the Security Council.
    The idea for the creation of an RRF is not new. Several 
nations and many prestigious individuals have already endorsed 
the concept. H.R. 4453, the McGovern-Porter U.N. Rapid 
Deployment Police and Security Force Act of 2000, was 
introduced in Congress this session, and includes a concept 
similar to the one that I am proposing. But the proposals for 
the creation of a rapid deployment force have not gone very far 
because the U.S. Government is opposed. Why? First of all, 
quality costs money, and the U.S. is penny-wise and pound 
foolish when it comes to international expenditures.
    Second, as you well know, the specter of a so-called U.N. 
army excites a tiny vocal minority of Americans, although 
calling a rapid reaction force of a few thousand personnel an 
army is a gross exaggeration.
    But for the U.S., the advantages of the creation of an RRF 
are many. Chief among them is that American lives might be 
preserved by reducing the pressure on the U.S. to intervene 
militarily in crises in far away countries in which we have no 
vital national interest, and at least some of the money the 
U.S. is spending to respond to unnecessary humanitarian crises 
could be saved or diverted to other uses, such as investing in 
programs to address poverty, the root cause of many of the 
conflicts afflicting the world.
    We have already heard in some detail from you, Mr. 
Chairman, about the Rwanda example. I just want to very quickly 
state that in four instances in the Rwanda case, the existence 
of an RRF could have prevented the mass deaths that you were 
referring to.
    First, during the genocide itself, there is now general 
agreement that an immediate strengthening of peacekeeping 
forces on the ground would have stopped the genocide and saved 
500,000 lives.
    The second missed opportunity was in July and August, 1994, 
when more than 1 million Rwandan refugees crossed the border 
into Zaire, now the Democratic Republic of the Congo. A 
peacekeeping force stationed near the border could have 
disarmed Hutu military units crossing it and prevented much of 
the later carnage.
    The third missed opportunity came later in 1994, when the 
U.N. Secretary General appealed in vain to the Security Council 
for 7,000 troops to disarm the Hutu militia now dominating the 
refugee camps. The camps were increasingly under their control. 
A peacekeeping force could have been deployed to disarm them.
    Finally, the fourth missed opportunity took place in 
November, 1996, when the Congo rebels broke up the refugee 
camps and hundreds of thousands of refugees fled deep into the 
forests of eastern Congo, where they suffered excruciating 
hardships, and thousands, perhaps tens of thousands, died.
    A peacekeeping force could have made a quick excursion in 
the Congo to set up a safe corridor to deliver aid and 
repatriate the refugees. Canada proposed that a force be 
deployed for this very purpose, but the U.S. scuttled the idea, 
arguing incorrectly that the number of refugees in the Congo 
was overestimated.
    The international community thus failed four times in quick 
succession with respect to genocide and its aftershocks in 
Rwanda. Moreover, if an intervention had been carried out 
successfully on the first occasion, the opportunities for 
interventions two, three, and four would not have arisen, and 
arguably, we would not have a massive humanitarian crisis in 
the Congo at the moment, because this whole situation has come 
inexorably from the 1994 disaster.
    For Refugees International, reforming the entire emergency 
response system of the international community is thus the 
number one issue of the post-Cold War world. Again, we start 
from a humanitarian perspective. Capable rapid reaction to 
prevent and mitigate the impact of life-threatening conflicts 
is a critical component of the reform. If we are truly serious 
about enhancing the international capability for peacekeeping, 
as President Clinton has indicated, then the U.S. needs to 
support the creation of a standing international rapid reaction 
force.
    Thank you for your attention.
    [The prepared statement of Mr. Charny is available in the 
appendix.]
    Mr. Smith. Mr. Charny, thank you very much for your 
testimony.
    Mr. Nuhanovic.

     STATEMENT OF HASAN NUHANOVIC, FORMER TRANSLATOR, U.N. 
                PEACEKEEPING FORCE IN SREBRENICA

    Mr. Nuhanovic. Mr. Chairman, I want to thank you for having 
taken the initiative in calling this important hearing today on 
United Nations peacekeeping.
    Congresswoman McKinney, I especially want to thank you, 
first for inviting me to appear before this honorable 
Committee, and then second, for the help of all your staff in 
getting me here from Tuzla, Bosnia.
    I come as a victim of the terrible slaughter which followed 
the fall of Srebrenica in July 1995. I personally lost my 
entire family there. My mother, my father, and my younger 
brother were all forced by the United Nations peacekeepers, 
Dutch battalion, out of the U.N. military compound and handed 
over to the Serb troops waiting outside.
    The Serb soldiers then took my family away and murdered 
them. My family should not have died. Instead, my family should 
have been allowed to stay in the U.N. compound and remain 
protected by the United Nations troops. My family should be 
alive today. The UNPROFOR Dutch battalion forced around 6,000 
men, women and children right into the hands of their 
executioners. In this way, they assisted the war criminals in 
their plan to exterminate the entire male population of 
Srebrenica. They did not have to do that. They considered the 
6,000 civilians on the base to be a burden and handed them over 
to the Serbs only for one reason, to speed up their own 
departure from Srebrenica. I should point out that this was in 
contravention of the written order dated 11 July 1995 from the 
U.N. Protection Force Commander Major General Gobiliard to the 
Dutchbat Commander Lieutenant Colonel Karemans.
    It said, ``Concentrate your forces into the Potocari Camp, 
including withdrawal of your Ops. Take all reasonable measures 
to protect refugees and civilians in your care.'' whatever the 
reasonable measures may mean, it certainly didn't mean to hand 
these people over to the executioners.
    Second, I come here today to bear witness to the truth of 
the horrors which occurred in Srebrenica. I was there. I saw 
what happened. I can confirm for you that on 11 July 1995 the 
U.N. safe area was allowed to fall to the hands of General 
Ratko Mladic and his forces. Mladic's forces had a free hand to 
enter the safe haven and murder over 10,000 Bosnian men and 
young boys, and rape hundreds of helpless women and young 
girls. It was a terrifying time for me and all the others 
trapped in the U.N.-declared safe haven, and it should have 
never been allowed to happen.
    But I do not need to detail today the full extent of the 
horrors which occurred following the destruction of Srebrenica. 
Indeed, these horrors are now well known and have become a 
matter of the international public record. Numerous books, 
films, and a number of official inquiries, including one 
conducted in 1998 by this honorable Committee, all catalog in 
great detail the surrender of the United Nations safe haven and 
subsequent horrific crimes committed by General Mladic's forces 
against Srebrenica's civilian population.
    Mr. Chairman, what I do want to raise with you is the 
ongoing struggle for justice by the survivors of Srebrenica. 
Following the fall of Srebrenica, as many as 10,000 civilians 
were murdered, a number of women raped and brutalized, and 
several thousand people were traumatized and brutalized.
    The decision to surrender Srebrenica forced thousands of 
survivors to leave their homes and all their property in Bosnia 
and relocate in Canada, Australia, the United States, and 
elsewhere throughout the world.
    The extent of the damage and the subsequent cost of these 
decisions by certain world leaders to surrender the enclave is 
almost incalculable. What price can be put on the deliberate 
surrender of a modern European city and the annihilation of 
10,000 of its inhabitants? What price can be put on the long-
term trauma inflicted upon 30,000 people? What level of 
accountability can be held against those world leaders who, 
knowing or suspecting that Srebrenica's civilian population was 
going to be annihilated, decided to surrender the city to 
General Mladic anyway?
    Despite the enormity of the crimes committed in Srebrenica 
and the extraordinary amount of evidence available to the 
international tribunal from the former Yugoslavia, in 6 years 
only four persons have been indicted for these crimes, and of 
which only two have been arrested.
    I and other survivors from Srebrenica are concerned that 
there is an ongoing reluctance to aggressively prosecute the 
Serbian military and its leadership who oversaw the destruction 
of Srebrenica. We see this as yet another abandonment of the 
victims of Srebrenica, and part of the ongoing cycle of 
impunity worldwide which cloaks ethnic cleansing and cleansers 
and mass murderers from the hand of justice.
    How can there be any sense of justice for the victims when 
we know that mass murderers move about Europe free from fear of 
arrest?
    In addition, the exhumed remains of over 4,000 of 
Srebrenica's victims are still being stored in the above ground 
facility in Tuzla. As you could imagine, this is totally 
unacceptable to the surviving family members. The remains 
should be shown respect and buried in a dignified place. I am 
pleased to say that the U.S. Ambassador to Bosnia and 
Herzegovina supports the families' requests to erect a memorial 
complex and bury the remains of their loved ones near Potocari.
    Regrettably, there is a strong resistance to this by 
certain Bosnian people in Srebrenica and the Republika Srpska. 
Mr. Chairman, I think you will agree that 6 years is an 
unreasonable period of time to have to wait to bury loved ones. 
We need your help and that of your Committee to end this 
outrage and ongoing indignity against our loved ones.
    I want to commend you, Mr. Chairman, along with the other 
members of your Committee, for undertaking this important task. 
I hope that by better understanding what happened in 
Srebrenica, you all might be able to ensure that there is some 
kind of honor and sanctity restored in the words ``never 
again.''
    I hope and pray that you will be able to ensure worldwide 
observance of international humanitarian law. Those who attempt 
to commit mass murder and those world leaders who choose to 
abandon innocent civilians in their care and turn them over to 
mass murderers must be shown that they will be met with force 
and prosecuted to the full extent of the law.
    There seems to be an uncomfortable paradox: We want more to 
be put right, but we are only prepared to sacrifice less. Is it 
right that promises to protect civilians from harm can be made 
to tens of thousands of helpless men, women, and children, only 
to abandon them in their hour of need?
    In Srebrenica, the survival rate of thousands of men and 
young boys who believed in the U.N. Protection Force, UNPROFOR, 
promises for protection and remained behind with the U.N. 
Protection Force troops in Potocari was zero. The number of men 
and boys who survived believing in the protection of this force 
was zero, while the men who chose to disbelieve in the U.N. 
Protection Force and flee through the minefields and risk 
attacks by the Serbian troops surrounding the enclave was over 
50 percent.
    Is there not sometimes a risk that by doing something half-
heartedly, we may actually be doing more harm than good?
    Mr. Chairman, in spite of all my family has endured, I 
still believe in the United Nations, and I hope it can fulfill 
its role in ensuring world peace. But the souls of the victims 
will not rest and the survivors will not find closure before 
those responsible for this great crime, no matter who they may 
be, are held accountable. If we are ever to ensure that evil is 
defeated in this world, then we must ensure that justice is 
triumphant and that the world community once again recognizes 
the equal and inalienable rights of all members of the human 
family.
    I hope that as a part of that process of overcoming every 
ill, that one day there is justice for the great wrongs 
committed in Srebrenica in July 1995.
    I would like to comment on a few points made here by the 
other witnesses.
    When it comes to the presence of a rapid reaction force 
that my predecessor mentioned, a rapid reaction force, to my 
best knowledge, and I followed the situation as one of the 
inhabitants of the U.N. safe area by improvised radio stations 
because we had no means of communication to the outside world, 
but we knew that a rapid reaction force at least 2 months 
before Srebrenica was finally attacked by the Serb forces was 
deployed in the suburbs of Sarajevo, in the vicinity of 
Sarajevo.
    Those were French and British troops. I don't know how many 
troops were there at that moment, but the deployment started at 
least one or 2 months before. When Srebrenica was falling, I 
believe that some strong force could have been used to prevent 
this massacre, and that can be also, of course, double-checked.
    There is another thing concerning the situation in 
Potocari, which was the U.N.-Dutch battalion base near 
Srebrenica. These troops, in order to save the lives of those 
people, these troops did not have to engage in combat. They did 
not have to fight war.
    This is also about the point of Mr. Bolton. The Dutch 
peacekeepers, U.N. peacekeepers in Potocari, the only thing 
they had to do was to allow the people to stay on their base. 
They did not have to fight with anyone at all. Also, the other 
thing is that Srebrenica as a whole, as an enclave, could have 
been protected.
    Again, I am speaking from the perspective of a survivor and 
of someone who was looking at the sky 5 years ago. There were 
no planes in the sky, jets, bombers, even though they were 
promised many times. There was a substantial force, including 
American jets and NATO jets from other countries, in the area, 
and they did not do what they promised to do. They did not 
prevent the massacre. Use of air power sufficient to stop or 
even eliminate the attacking Serb units could be used.
    That is all I wanted to comment on the points of the other 
witnesses.
    Mr. Smith. Mr. Nuhanovic, thank you very much. Thank you 
for coming back to this Subcommittee. Members of the Panel will 
recall that you were here 2\1/2\ years ago and gave very 
compelling testimony about the horrific events that happened in 
Srebrenica and your own personal tragedy.
    I wonder if you can just tell us if there has been any 
reckoning, or have any of those who committed the atrocities in 
Srebrenica been brought to justice at the Hague? Are there 
pending indictments against those who perpetrated those 
terrible cruelties?
    Mr. Nuhanovic. To my best knowledge, the U.N. International 
Crimes Tribunal for the former Yugoslavia has indicted three 
persons. Their names are on the public list of the indictees. 
The officials of the ICTY claim that there is also another 
list, which is a sealed list not available to the public, but 
of course I and other survivors do not have access to this 
list.
    So as far as I know, the only war criminals, war crimes 
suspects so far indicted are Ratko Mladic, Karadzic, and 
Krstic. He was arrested 1 year ago, and he is being tried in a 
tribunal at the moment.
    Mr. Smith. When it comes to empowering a U.N. force with 
the proper mandate, is it your view, and any of the other 
panelists who might want to speak to this, that it was the lack 
of a proper mandate, or was it the military personnel on the 
ground, or was it a combination of both, that led to the 
significant deficiencies in the U.N.-deployed forces?
    I remember as Chair of the Helsinki Commission and the 
Subcommittee we held a whole series of hearings about the safe 
havens and the fact that they acted as a magnet for further 
bloodshed, and did not serve the role that had been envisioned.
    Was the U.N. and the Security Council not serious enough? 
Were we bluffing, or was it poor military people on the ground? 
Who would like to comment?
    Mr. Bolton?
    Mr. Bolton. Thank you, Mr. Chairman. We considered during 
the Bush Administration in 1992--we expressly considered the 
issue of endorsing and creating safe havens in Bosnia at 
several points during 1992. We concluded that it would be a 
mistake to create safe havens precisely because of the natural 
reaction: When the United Nations declares a safe haven, 
reasonable people fearful for their safety we feel were likely 
to go to the safe havens, and thus attract a vulnerable 
civilian population that no nation then participating in 
UNPROFOR, the U.N. Protection Force, was willing to offer up 
sufficient real military power, real military power, to defend.
    We felt that however bad the situation was in Bosnia, and 
from a humanitarian point of view there is simply no question 
it was an ongoing tragedy, but we felt it would have been 
basically just an exercise in feel-good diplomacy at best to 
create the safe havens and run the risk, I think sad to say, of 
ultimately what happened there.
    The members of the Security Council with whom we discussed 
this in greatest detail were on the one hand the British and 
the French and on the other hand the Russians. The British and 
the French at that time and subsequently had forces in 
UNPROFOR. They were present on the ground. They were among the 
strongest voices against creating safe havens. At the same 
time, at that point, the Russians were much more cooperative. I 
don't think they would be so cooperative today in doing that 
type of thing.
    This underlines what I think is a very important point. 
This is almost never a question of capabilities. This is almost 
certainly a question of the political judgment of the Security 
Council, which may do what we consider to be the right policy 
or may not do the right policy, but nobody should think that 
when members of the United Nations sit on the Security Council 
they lose their sense of national interest. They pursue it 
vigorously, and they would on any international council created 
to look into these kinds of situations. That is a reality that 
is not going to change.
    Mr. Smith. Let me just make a point here, that the whole 
idea of the safe havens and what should be done about the 
former Yugoslavia was not without another possibility, and that 
was lifting the arms embargo. I was the prime sponsor of a bill 
that would have lifted the arms embargo.
    Then Prime Minister Silagic appeared twice before the 
Commission on Security and Cooperation in Europe and said, we 
don't want your troops, French, British, American, we want the 
capability that every sovereign state ought to have, and that 
is to defend itself.
    It seems to me there was a double miscalculation. I know 
there perhaps were good arguments that it would lead to further 
bloodshed. But it seems to me when we had an aggressor--and I 
think Dr. Durch, one point that you make is this inability to 
differentiate between aggressor and victim. It seems to me we 
are looking at Serbia, Milosevic, somehow as being just another 
player, perhaps worse than others but still just another player 
on that scene, rather than an offensive, obscene aggressor 
against first the Croats and then the people of Bosnia.
    I just mention that, and you might want to comment on that. 
Let me just ask a question of Mr. Charny with regard to the 
rapid reaction force.
    It seems to me we learned the wrong lesson from Somalia. It 
was not a matter of the deployment. I will never forget Les 
Aspin, then Secretary of Defense, at a meeting in which both 
Democrats and Republicans attended. He was trying to defend a 
statement that it would just not fly on the Hill for us to beef 
up the local commanders' requests for additional materiel and 
troop strength because the situation was so volatile.
    Then, because of the insufficiency of the force and an 
opportunity, the warlords took advantage of that and obviously 
killed our men and dragged them through the street, leading to 
a policy and humanitarian debacle. We learned the wrong lesson, 
I think, from Somalia. If you are going to have troops there, 
have sufficient numbers.
    The rapid reaction force, I am not sure how that would 
differ. The U.N. had, with General Dallaire, a force on the 
ground in Rwanda. We have seen the memos that went to the 
Secretary and the faxes that went to Secretary Kofi Annan, then 
head of the peacekeeping processes, and it was ignored. There 
was a breakdown. Either he didn't think it was serious enough 
or had other balls in the air, if you will, but there was a 
major, major miscalculation.
    Why were there not other people in the Secretariat or in 
some other area--and Dr. Durch, you might want to speak to 
this--who saw that fact and said, hey, we have a problem here. 
That could have been mitigated, maybe cut off at the root, 
before a killing field unfolded. So there was a force there. I 
am not sure now a rapid reaction force would differ.
    Add to that, Mr. Bolton, your assertion that there should 
not be independent intelligence-gathering capabilities. Perhaps 
all of you might want to speak to why or why not that is a good 
or bad thing.
    Mr. Charny. That is a big question, because I am not here 
to defend the U.N. as an institution. Therefore, I cannot 
address the issue of why this cry for help was ignored.
    We are interested in, I think, in the first instance having 
a rapid reaction force under U.N. control precisely because of 
this issue of the Security Council, and the reality that this 
force could only be deployed with the support of the great 
powers within the Security Council.
    Some of us are thinking in the back of our minds that 
because the U.N. has been so dysfunctional and so ineffective, 
you could actually push this even further and ask, should this 
somehow be an independent entity? But that raises governance. 
That opens a whole other Pandora's box about governance issues 
related to the force.
    The issue in Rwanda was that you had a commander on the 
ground who had an inadequate force. He asked for reinforcements 
and did not receive them. If a rapid reaction force were 
available and 300 members of that force were deployed and 
another thousand were needed, the whole point is they could be 
deployed immediately if, if it was recognized--if that message 
gets through and it was recognized that deployment was 
necessary under those circumstances.
    We can look back--the U.N. has to accept responsibility, 
but we also know that the Secretariat cannot act basically in 
this system without political will from ``the international 
community.'' Other great powers, the U.S., France, perhaps 
other countries in Europe, knew that a genocide was imminent, 
but for whatever reason they didn't push for a response under 
those conditions, partially because they didn't then want to be 
called on to supply troops to such an operation.
    That is another advantage of an RRF, that it exists. No 
one's troops are going to be put on the line. These are people 
who have volunteered to be a part of this force, and therefore, 
that deals with one of the political issues, which is we don't 
want to sacrifice our boys in a useless conflict 5,000 miles 
away.
    Mr. Smith. Mr. Durch?
    Mr. Durch. Thank you. I can't speak to the command and 
control failures with the two incidents. I was not there and 
was not part of the U.N. Certainly there is plenty of blame to 
spread around among members states as well as the United 
Nations.
    Several developed countries had noncombatant evacuation 
operations with security forces to protect them in Kigali that 
probably, if combined, could have provided the force necessary. 
It is also perhaps not focusing on enough that the killing took 
a long time. It spread out in a particular way. If at any time 
the sort of delays that various member states were imposing on 
the Security Council had not occurred, and instead of 800,000, 
maybe 400,000 or fewer would have died; it was something that 
could have been stopped at many steps along the way.
    On the other hand, I would like to differ with Mr. Charny 
about whether the particular kind of rapid deployment force 
that he is talking about could have done any good in the Goma 
camps, or could have made the Canadian proposal in 1996 work.
    They were about to march into disaster with ordinary 
peacekeeping rules of engagement against 50,000 heavily armed 
and relatively fanatical individuals embedded in 1 million 
civilians.
    The thing about the Rwandan genocide or any other 
comparable tragedy, whether we are talking about Sierra Leone 
or someplace else, if we go with John Bolton's philosophy, we 
would essentially ignore future instances and let tragedy 
unfold, whereas I think what some of the other speakers are 
trying to get at is to try to figure out how to prevent and 
contain them; to figure out when they are going to happen and 
to take rapid action upstream before we have to deal with a 
holocaust.
    That is kind of what we were grappling with with the 
Brahimi report.
    Mr. Smith. Thank you, Mr. Charny.
    Mr. Bolton.
    Mr. Bolton. Thank you. The central problem is that some day 
somebody might rapidly deploy into a situation where there is 
no peace to keep, or where the military situation is such that 
the force itself could get bogged down. Then once those 10,000 
are bogged down, what happens then? There is not any question 
what happens then: Everybody turns to the United States and 
says: ``you get them out.''
    The basic issue here is what the members of the Security 
Council are willing to do ultimately, and whether they are 
willing to think through all of the implications of force. I 
think it is just bully-boy talk, and dangerous for that reason, 
to act as though a few thousand people in some of these 
conflicts are really going to make a difference.
    In the case of Rwanda, I think the evidence is overwhelming 
that the actions of a permanent member of the Security 
Council--that is to say, France--actually contributed to this 
genocide by the protection offered to the Hutus, and in a 
variety of deployments that France undertook.
    France is a permanent member of the Security Council. Maybe 
Mr. Charny wants to throw them off. Good luck. But the idea 
that the Council is a group of platonic guardians that you can 
rely on to do the right thing is misplaced in and of itself.
    I don't want to add to the Committee's burdens, but I would 
strongly urge you to read a pamphlet that has recently been 
published by the U.S. Institute of Peace written by Amadou Ould 
Abdullah, the former Foreign Minister of Mauritania and the 
Secretary General's Special Representative in Burundi in 1993-
1995, which both lays out his experiences there during a time 
that Rwanda was collapsing into genocide, but Burundi was not.
    Some of his observations, which are very powerful, I think, 
one of which is pertinent here, is that it is not inevitably 
the case that outside intervention makes things better. Outside 
intervention, and particularly the interposition of military 
forces, can complicate things and make things worse.
    Mr. Charny. Mr. Chairman, I think Mr. Bolton should respond 
to the issue in the eastern Congo at the moment, where the 
International Rescue Committee has documented with their 2-
month medical investigation, that in the last 2 years, 1.7 
million Congolese have died basically because of humanitarian 
reasons caused by the war.
    Now, to simply ignore that, and try to work this issue 
through Lusaka, through a peace process, is proving extremely 
difficult for reasons that we are aware of. The parties are at 
serious odds with each other, and the war continues.
    At the same time, you have a humanitarian catastrophe 
unfolding. The basic question is, are we just going to sit here 
and do nothing, and allow 2,000 people a day to continue to 
die? It is very easy to talk about political interests and the 
narrow interests of the United States and other members of the 
Security Council. However, that just condemns many people to 
death that don't deserve to die.
    The other issue is the balance question. It is very easy to 
ignore catastrophes in Africa that far exceed the magnitude 
catastrophes in other parts of the world. Again, as a 
humanitarian organization, for what it is worth, we can't 
accept that.
    Mr. Smith. Mr. Charny, there are 5 minutes remaining.
    Mr. Bolton, we will go to you, and then I will yield to Ms. 
McKinney. There is a vote and there are 5 minutes remaining. We 
will be in recess for 5 minutes or so. I want to say something 
in response to that.
    Mr. Bolton?
    Mr. Bolton. Thank you very much, Mr. Chairman. To answer 
the question that was put before we broke about the situation 
in eastern Congo, I think that is a classic case of a confused 
and very uncertain military and political environment that 
leaves the outside world few, if any, realistic options at this 
point.
    I think one of the reasons for that is that one of the 
principal problems is in fact the government of the Congo, and 
the most efficacious way to deal with that would be to change 
the government. But I don't know of any potential contributor, 
United States or anybody else, that is really willing to do 
that.
    I think that goes to the core of the decision-making, not 
talking about abstractions and theories, but talking about hard 
decision-making, being able to contemplate at the beginning of 
an operation the possible consequences and really being able to 
commit to it. That is why the notion of a rapid reaction force 
is ultimately more dangerous than it is naive, although it is 
certainly naive.
    I believe that the events in the eastern Congo are a proof 
of that.
    Mr. Smith. Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman. I have many 
questions. I will start off with the ones that I posed in my 
opening statement.
    Mr. Durch, I have read the Brahimi report. The one thing 
that is not mentioned in there is the responsibility to the 
survivors of the victims of United Nations failures. We have 
Mr. Nuhanovic here, who has lost his entire family. What is the 
responsibility of the United Nations to the survivors of its 
victims, and why was that left out of the Brahimi report?
    Mr. Durch. Ms. McKinney, I have, obviously, the deepest 
sympathy for Mr. Nuhanovic and his family and their loss, all 
of those losses. I cannot answer you what the U.N.'s 
responsibility is.
    What we tried to do with the report was to look forward and 
try to gauge reforms, restructuring, decision-making, 
analytical ability, cooperation among states, such that these 
things would not happen again if the U.N. was called upon to 
deal with them. So we have been trying to go forward from this 
point and look back to the reports on Rwanda and Srebrenica 
that had been issued as the U.N.'s statement on those 
tragedies.
    But if you are looking at accountability, I would also look 
at member states. I would look at the states that voted for too 
few forces to implement what was a rather slickly worded, and 
probably misguided, safe havens policy for Bosnia. I would look 
at NATO countries that were unwilling to take forceful action 
against Mr. Milosevic and his people under the Bush 
Administration when conflict first broke out in 1991 and 1992.
    The same goes for early action in Somalia after that 
country lost its government in 1991, before people starved to 
death. There was an opportunity to move early and strongly 
before the situation became so difficult.
    So you could ask the government of the Netherlands or 
Britain or France that were in the chain of command in 
UNPROFOR. You could ask the United States Government about the 
delays in deploying forces in Rwanda. You could ask a lot of 
governments.
    Mr. Bolton is right, that to a very great degree, certainly 
up to now, the U.N. and its ability to do peacekeeping is the 
sum of its national parts. What we are suggesting is that there 
should be a bit more than the sum of the parts; that it not be 
totally reactive, even if Mr. Bolton is worried about that. 
Otherwise, when it is given the go sign from the Security 
Council, from the member states, it is flat-footed. It knows 
nothing, it has nothing on tap, it has no people, no money, no 
goods, no doctrine.
    So there should be some sort of advanced ability to think 
and plan, to strategize, and to be ready when its members call. 
This is critical to respond to any of these kinds of 
situations, whatever the kind of situation you think it is that 
the U.N. should work with.
    That kind of gets to our question on robustness and the use 
of force. The report says that you really should be very 
careful in picking your missions and picking your deployment 
areas. But when we get to the use of force, we tried to deal 
with a very complicated issue in what we hoped was a rather 
nuanced fashion, and I guess I resent Mr. Bolton's 
characterization of the report as intellectually dishonest. We 
are not trying to pull a fast one, we are trying to deal with 
complex issues that have arisen from real operations faced by 
real troops on the ground, and to work out practical means of 
addressing them.
    Our point was that if you think there is a risk of violent 
challenge when you are implementing a peace on behalf of the 
survivors of a civil war, if there is a challenge, for whatever 
reason--factions break off, new factions form that had nothing 
to do with signing the peace accord, all sorts of 
possibilities--if you can't defend yourself and cannot defend 
the peace accord there is really no point in going out there. I 
think that is an intellectually honest conclusion and really 
the only one you can draw if you intend at all to grapple with 
these issues.
    Ms. McKinney. Mr. Bolton, did you want to respond?
    Mr. Bolton. Just a brief point with an example from a 
practical situation where the involvement of the United Nations 
in a peacekeeping capacity actually may have made things more 
difficult.
    I am speaking again specifically of our experience in the 
Bush Administration in 1992 in Bosnia, where the UNPROFOR, the 
U.N. Protection Force, was deployed there, and where, during 
that period in the late summer and early fall in particular, 
the Serbs undertook very substantial activities against the 
delivery of humanitarian assistance, particularly in and around 
Sarajevo, but basically throughout Bosnia it was becoming more 
difficult to deliver humanitarian assistance.
    The reaction that many people had in the United States 
within the Administration was to say that we ought to toughen 
up the reaction of the UNPROFOR soldiers already on the ground, 
or resort to outside military force if need be.
    That possibility, which we urged publicly, was rejected by 
every troop-contributing country that had troops on the ground 
in UNPROFOR; that is to say, the British and French in 
particular, but many others as well, on the ground. Attempting 
to have, in effect, both peacekeeping and peace enforcement 
activities in the same place at the same time by the same 
organization was in fact, one, destabilizing, and, two, risky 
to the peacekeepers.
    I think in fact that subsequent developments there and 
elsewhere showed that to be the case, that you can't have an 
on-off switch in effect between peacekeeping and peacemaking. 
Once you cross the line, once the United Nations or anybody 
else crosses the line, as happened in Somalia, and becomes a 
military force in a confused and ongoing military situation, it 
cannot pull back later and say ``we are neutral again.''
    That is an important lesson that I think the Brahimi report 
completely misses.
    Ms. McKinney. Mr. Nuhanovic.
    Mr. Nuhanovic. I would like to say something concerning 
this role of peacekeeping and peacemaking or peace-imposing.
    I was in the Hague tribunal speaking with the deputy 
prosecutor, Mr. Graham Bluett. I asked him if there was a 
possibility for the tribunal to consider indicting some 
individuals present in the area that in my opinion, based on 
what I saw there, did assist in the war crimes. There was 
also--the political adviser of Mr. Bluett said that the troops 
in Srebrenica had a peacekeeping mission.
    So I asked the man who made this remark, I asked him, what 
is the rifle in the hands of a peacekeeper used for? And he 
immediately replied, self-defense. I knew he was going to say 
that. I asked him, is it self-defense to come with a rifle in 
the hands and chase my family out of the enclave? He said no, 
it is an offense.
    So I think they crossed the line, not in the way they 
should have, but in totally the wrong way.
    Ms. McKinney. Mr. Durch, I find your response about 
shifting the blame to member states, or accountability to 
member states, to be totally unacceptable.
    The fact of the matter is that the United Nations was 
calling the shots. The United Nations ought to pay reparations 
for those that it has damaged.
    It is my understanding in 1961 that the United Nations did 
just that with citizens of Belgium during the Belgian Congo 
conflict. So now why is it that the United Nations will not pay 
reparations to Mr. Nuhanovic and the other members, the 
survivors of U.N. debacles where the United Nations has 
admitted that it was wrong and that it was complicit in these 
crimes? This was left out of the Brahimi report?
    Mr. Durch. Ms. McKinney, as I said at the beginning of my 
testimony, I am not speaking for the U.N. You will really have 
to ask them that. The terms of reference for the report did not 
consider reparations, they considered how we move forward and 
do operations more effectively if they are called upon to be 
done in the future. Our job is to try to repair the damage that 
everyone acknowledged had accumulated, and to move ahead from 
this point. I'm sorry, it was not in our terms of reference.
    Ms. McKinney. That is a fundamental problem if it was not 
in your term of reference.
    Mr. Chairman, I am concerned about the testimony of Mr. 
Nuhanovic, who says that there are thousands of bodies that 
need to be buried. Certainly there is something that we can do 
to assist in that situation, but I would like to ask if the 
United Nations is doing anything to assist in the proper burial 
of the victims of Srebrenica.
    Mr. Durch?
    Mr. Durch. Ms. McKinney, I will ask my colleagues up at the 
U.N. and perhaps they can communicate with you.
    Ms. McKinney. Thank you. Who will you be talking with, so I 
can look out for that call?
    Mr. Durch. I will call Mr. Brahimi and ask him.
    Ms. McKinney. Thank you.
    Additionally, Mr. Durch, could you tell me if United 
Nations peacekeepers are ever allowed not to prevent genocide 
or crimes against humanity?
    Mr. Durch. I am sorry, ma'am, I don't quite understand the 
question.
    Ms. McKinney. Is the prevention of genocide or crimes 
against humanity inherent in the mandate of any peacekeeping 
operation?
    Mr. Durch. In the past year the Security Council and the 
Secretariat have issued reports on the protection of civilians 
in armed conflict. I believe in the last--I can't give you the 
actual resolution number, but roughly in March the Security 
Council listed that the protection of civilians in armed 
conflict, where there are U.N. forces deployed--it listed that 
as a general objective or desirable objective, within the means 
of those forces, when U.N. forces are deployed.
    What we wrote into the report was to take language from the 
Rwanda report, actually, the Carlsson report from last 
December, saying that when U.N. police forces or military 
forces, military peacekeepers, are confronted with violence 
against civilians, they should take action to stop it, 
regardless of what their mandate says, because that is 
consistent with the principles of the United Nations charter.
    Now, you can understand that when there are 10 
peacekeepers, let's say, and a thousand armed challengers, they 
are not going to be able to do very much.
    Ms. McKinney. That is not the situation with respect to Mr. 
Kavuraganda in Rwanda. He was one individual with his family, 
and there were United Nations peacekeepers there. In fact, 
those peacekeepers handed Mr. Kavuraganda over to his killers, 
so you have in this instance United Nations peacekeepers who 
are complicit in crimes against humanity.
    What is the responsibility of the United Nations in this 
particular situation?
    Mr. Durch. Yes, ma'am. In that instance, that is an 
indefensible action. There were many indefensible actions in 
the course of the Rwandan genocide, and that is one of them.
    Ms. McKinney. And the United Nations to date has done 
nothing to assist the Kavuraganda family, yet in 1961 the 
precedent has been set that reparations were paid to Belgian 
citizens who were damaged by the U.N.
    I just think that it is a very important tenet of whatever 
it is that you are going to do or propose to the United 
Nations, that damages be paid to people or redress to people 
who feel they have been damaged by the U.N.
    Otherwise, you leave people like that woman I talked about 
in Missouri, who have no safety net at all, to commit suicide. 
You have Mr. Nuhanovic searching around for land to try and 
find a burial place for I don't know how many, is it 4,000 
people, whose bodies are stored in a refrigerator.
    Mr. Durch. Actually, I would talk to Mr. Mladic and Mr. 
Karadzic about that. I would get some reparations from them 
first.
    Ms. McKinney. Actually, Mladic and Karadzic did the 
killing, but it was the United Nations that turned in 
Nuhanovic's family over to them for the killing. If those 
instances are not addressed, as you are trying to establish--I 
have read your report and I think you did a wonderful first 
step, but it certainly isn't enough.
    Mr. Durch. No, ma'am.
    Ms. McKinney. It is not enough to encourage me to support 
the recommendations thus far.
    I have many more questions, but I want to allow my 
colleague an opportunity to ask some questions.
    Mr. Smith. Mr. Delahunt.
    Mr. Delahunt. Mr. Chairman, I presume we will have a second 
round. This has been very informative and very enlightening.
    Let me express my sympathies to Mr. Nuhanovic. To pick up 
on the comment of Ms. McKinney, I would hope that maybe this 
Subcommittee could draft an appropriate letter to inquire as to 
the concerns that you expressed about the proper burial. Maybe 
that is something we could do, Mr. Smith, Ms. McKinney, and 
myself, in the form of a resolution which would hopefully 
prompt some sort of a response.
    Mr. Bolton, you talked about sort of multilateralism and 
your confusion with the term. I want you to know I have the 
same confusion with the concept of the new world order that I 
think was part--let me finish--maybe it was just an extension 
of the new world order, multilateralism.
    Dr. Durch, thank you for taking on a very unenviable 
effort. You really deserve to be acknowledged and praised for 
the effort. I have not had an opportunity to read the report, 
but I intend to. It is extremely challenging.
    Maybe you could all help me here. I guess I would direct 
this rather vague question to Mr. Charny and Dr. Durch.
    As you see the problem, and I think it was you, Mr. Charny, 
that indicated that in your eyes, a specific problem was the 
lack of ability to respond quickly. I guess I would say that if 
that ability was present, in whatever form this rapid 
deployment force may or may not take--and again, I direct this 
to both Dr. Durch and yourself--if that ability was there with 
5,000 or 10,000 military personnel available, do you believe in 
any way, given your review of these situations--and I might 
add, it is clear that the problem is in the area of 
humanitarian issues, because I have no doubt that the states 
that could be directly implicated, if their economic interests 
were at risk, they would find a way to respond. But I guess, 
who really needs Rwanda? What do they have except just a bunch 
of people? And of course, you know, they are black people, they 
are not Europeans.
    In any event, do you think that that ability, that 
capacity, might serve as a deterrent, not particularly in 
Rwanda but in other cases that you are familiar with?
    Mr. Charny. I think the best recent example I believe is 
the case of Sierra Leone. I believe had a rapid reaction force 
been available with a unified command, adequate troops 
available on short notice, and they had been deployed, I think 
that would have had on the one hand potentially a confidence-
building effect on the population, and to some extent there is 
an intimidation factor.
    If you look at the difference between the reaction of the 
parties to the conflict to the U.N. deployment and the 
deployment of British troops, I think what we are looking for 
through the existence of a rapid reaction force is more of the 
latter effect; in other words, a capable unified force, force 
under a unified command----
    Mr. Delahunt. Let me interrupt you. Maybe I am not being 
clear enough. Maybe I am not understanding your response.
    Clearly, I think it would be more effective in terms of on-
the-ground combat or its capability on the ground. I am talking 
about its mere existence serving as a deterrence, if you will.
    Have there been instances where, in your opinion, you 
believe that merely the existence of this particular force may 
have made a difference in the decision-making of those that 
were perpetrating the kind of outrages that occurred?
    Mr. Charny. I apologize. I misunderstood the question.
    I have to say, the deterrent impact I think at least 
initially would be minimal, because these conflicts are driven 
by local forces, local factors, local injustices. I do find it 
hard to believe that someone in Sierra Leone or in Angola would 
sit back and say, whoa, there is a rapid reaction force now, 
and not be as aggressive as he might have been otherwise. So I 
would have to say no, I don't see an immediate deterrent 
impact.
    Mr. Delahunt. Dr. Durch, do you agree with that statement?
    Mr. Durch. I would agree with that. As you know, or I 
should have made clear, I am not a big fan of an independent 
sort of rapid reaction force. I am a fan of states getting 
together and improving their ability to respond when there is a 
need.
    Mr. Delahunt. Has there ever been an effort in the United 
Nations to have a centralized training function, and I can't 
quite articulate it, but something less than an independent 
force where training would occur on a rotating basis with 
commitments by member nations so that the infrastructure 
itself, i.e., accountability, chain of command, communication, 
would be available?
    Clearly there would be more delay, as opposed to an 
independent force, but in your opinion, would that reduce the 
delay that Mr. Charny expressed concern about in terms of 
terminating at the incipient stage, if you will, these 
outrages?
    Mr. Durch. Yes, sir, it would have a contribution. There 
are two separate problems, though. One is stopping an ongoing 
tragedy, which I think we try to make clear--and certainly I 
believe--is the job of a coalition of willing national states 
who have banded together to do something. The United Nations is 
never going to be in a position to be able to stop a war, but 
those coalitions often want to hand off to someone, whether it 
is in Somalia or Haiti or Sierra Leone or East Timor. They want 
to do the job of creating initial order, and then hand off to 
someone to do the longer term reconstruction task.
    Mr. Delahunt. Usually it is the United Nations.
    Mr. Durch. Yes. If there were stronger regional 
organizations outside of Europe, then certainly that would be a 
preferred option. But even in Europe, even with Kosovo and 
Bosnia, we find a mixture of the U.N. and Europe's 
organizations sharing responsibility for trying to put the 
place back on its feet.
    The second case, then, is either taking such a hand-off or 
implementing a peace accord where you have a nominal peace but 
you may have challenges built into it. Now, if you have--right 
now there are national peacekeeping training centers in places 
like Canada, Malaysia, and in the Nordic countries and in 
Austria, but these are for traditional border monitoring kinds 
of missions, observation missions.
    What the report is urging countries to do, either on a 
north-south basis or a south-south basis, is to really enhance 
cooperation, to promote interoperability, and to give the U.N. 
enough resources so they can develop doctrine--just simple 
handbooks, things countries can use to then have a common 
playbook. We do think that would improve the ability to respond 
when the Council gets what we hope are better-informed 
assessments of conflicts and accords, that they would then be 
able to move a little faster.
    The people we talk to who try to do this for a living say 
that anywhere between 2 to 3 months, if nothing has happened 
after an accord has been signed, then everyone begins to think 
nothing is going to happen and maybe we can get away with 
backing away from it. The momentum of the peace is really lost.
    So if it does take 6 months to deploy, that is bad. What we 
have set are the first benchmarks ever set for the deployment 
of peacekeeping operations. We would like to see a traditional 
operation like the one between Ethiopia and Eritrea on the 
ground in 30 days, and we would like to see more complex ones 
in 90 days.
    Mr. Smith. Mr. Delahunt.
    Mr. Delahunt. One final question. Is it possible to expand 
your terms of reference, your mandate, to review the issue of 
reparations?
    Mr. Durch. I can certainly raise that point.
    Mr. Delahunt. Part of that, I presume, would be the United 
States, which has to pay its dues in a timely fashion.
    Mr. Durch. There is that.
    Mr. Smith. Thank you, Mr. Delahunt.
    Let me ask Mr. Bolton, what is the current role of the U.N. 
military staff Committee in overseeing U.N. peacekeeping 
operations, and what should that role be? Anyone else who would 
like to speak on that, Dr. Durch or Mr. Charny, may. What 
should the role be?
    Mr. Bolton. I'm sorry Mr. Delahunt had to leave. He did 
raise a point that I wanted to respond to with regard to a 
comment that President Bush made about the new world order.
    I think the President has made it clear since he raised 
that that what he had in mind was trying to describe the post-
Communist world; not to imply that in fact some new world order 
existed, but that the Cold War structure had broken down.
    The response to your question is that, fundamentally, the 
Military Staff Committee has, and has had, almost no role. 
During the Persian Gulf crisis we did use it I think 
effectively to provide limited military briefings to other 
members of the Council and other members of the United Nations, 
but that was really a one-time proposition.
    My argument is that if there is to be a substantial 
enhancement of any kind of military capability, that the role 
of the Military Staff Committee envisioned, as it was, flowing 
from the authority of the five permanent members, has to be 
implemented, and that the Brahimi report or other 
recommendations that would lodge any kind of substantial 
military authority beyond traditional peacekeeping in the 
Secretariat is a derogation of the authority of the membership 
of the U.N. in general, and specifically of the five permanent 
members. It would be contrary to the intent of the drafters of 
the Charter, and would be adverse to the interests of the 
United States.
    Mr. Smith. Dr. Durch?
    Mr. Durch. As far as I know, the Military Staff Committee 
is not utilized for anything substantive at this time. There 
are options under the charter for the Security Council to 
establish subsidiary advisory groups if it wishes to.
    The problem with the Military Staff Committee, I guess, is 
that it is an original item of the charter that was really 
designed to prevent and, if necessary, provide strategic 
direction to fight World War III if the Nazis ever came back, 
or something of that nature.
    In the 1940's, the system got so far as to make some plans 
for joint military operations. This thing would kind of 
replicate the combined Joint Chiefs. Since then, I guess more 
by tradition than explicit authority in the charter, the notion 
of peacekeeping has arisen that is managed within the 
Secretariat as kind of a working political substitute.
    Mr. Smith. In the Brahimi report the statement is made, 
``the Secretariat must tell the Security Council what it needs 
to know, not what it wants it hear, when recommending force and 
other resource levels for a new mission. It must set those 
levels according to realistic scenarios that take into account 
likely challenges to implementation. Security Council mandates 
in turn should reflect the clarity that peacekeeping operations 
require for unity of effort when they deploy into potentially 
dangerous situations.''
    Did your panel find that that was not the case, that there 
was a lack of candor or realistic assumptions as to what would 
be needed?
    Mr. Durch. I think repeatedly what the system has tended to 
do is self-censor, partly in response to private communications 
from member states that say, look, we cannot go there, you 
cannot go here, you cannot go somewhere else with the analysis.
    We think that it is important that the Secretariat have the 
capability and the will, have the capability to give the 
Secretary General the will to really do serious threat 
assessments, serious assessments of the problem on the ground, 
so that the Security Council has no excuse but to say that it 
has been very well informed of what it might be getting 
peacekeepers into before they go ahead. I think that is 
actually vital.
    Mr. Smith. Before Mr. Bolton answers, were there any 
peacekeepings in the past, like Srebrenica, like the debacle in 
the Balkans, that were used to look back and say, this is where 
we were, with a snapshot in time, this is what the 
recommendations were, that is where the assumptions were 
flowing?
    Mr. Durch. Certainly we were aware of and paying close 
attention to the Rwanda and Srebrenica report, but also 
watching the situation unfold in Sierra Leone as kind of the 
last and latest example of the old system in operation whereby 
forces are sort of trickled in.
    But one should also emphasize here that the other thing 
about Sierra Leone, the Sierra Leone operation, was that the 
U.N. had nothing to do with negotiating that accord, as it had 
nothing to do with negotiating the terms of reference for the 
Kosovo deployment.
    So that is kind of the other side of the coin, that really, 
people that know about the capabilities and the limitations of 
the tool should be actively involved in the run-up to the 
settlement that asks for U.N. implementation assistance, and 
that therefore the Security Council should be made specifically 
aware of what the limitations are.
    Mr. Smith. Mr. Bolton?
    Mr. Bolton. I think the record of the Secretariat is mixed 
in this regard. There have been unquestionably cases where the 
Secretariat and sometimes even the Secretary General himself 
said, ``this is not going to work. I don't have the resources 
to do this, and I don't think it is doable, anyway.''
    The result--and I am just thinking specifically about the 
case of the weapons internment program around Sarajevo and the 
weapons exclusion zone, where Secretary General Boutros-Ghali 
on several occasions said he did not think UNPROFOR as 
constituted was capable of undertaking the tasks that the 
Security Council gave it. The Security Council members went 
ahead and gave it the tasks anyway.
    In that sense, there is no doubt--and I think it is a 
mistake not to assign blame to the member governments, because 
it is frequently their unrealistic expectations, and indeed, to 
a certain extent, their own domestic political constraints or 
pressures that induced them to give the United Nations 
responsibilities which it cannot handle or for which the member 
states are not willing to give it resources, but which look 
good domestically.
    I can say on any number of occasions I have seen that 
discussion in the State Department where people say, why can we 
not just give this to the United Nations, as if there really is 
a ``there'' there. There is not a ``there'' there. The 
``there'' is the countries, and unless the countries that are 
members of the Security Council make the conscious decision to 
implement what they are saying, it should be no surprise that 
the U.N. deployment fails.
    Mr. Smith. Let me ask a question with regard to the rapid 
deployment force idea. No one ever knows the exact numbers, 
15,000, or who knows if it is going to be a 30,000 over time 
contingent--but it seems to create questions about the analysis 
that would be needed to support the informational and 
analytical needs of the Secretary General and the members, when 
you have such a force ready to be deployed. Earlier, Secretary 
Bolton admonished us that there should be no intelligence-
gathering capability.
    How do you configure such a force that does everything 
except what is also a very important component of any force, 
and that is, eyes and ears, intelligence gathering? How is that 
perceived going forward? Will there be the equivalent of the 
CIA in the future so those troops could operate, if they are 
configured, in a way that achieves the mandate and saves lives?
    Mr. Durch. Mr. Smith, we are not advocating in the report a 
CIA for the U.N. There is so much open source information that 
is generated within the system and by U.N. NGOs in the field 
and by the U.N.'s own people that is simply not brought 
together and analyzed for purposes of looking ahead and 
anticipating problems that I think you could do quite well with 
open source information and selective requests for classified 
data as needed.
    We were not in a position to advise those who would form 
the military units, the effective military units to go into the 
field, how they should do their intelligence, but we did make a 
note that the U.N. should get over its aversion to allowing or 
encouraging field units to have good intelligence capabilities.
    Those are going to have to come from the states themselves 
deployed with the units. They should work together beforehand 
so they can act effectively in the field.
    But obviously, you need to know what you are getting into. 
You need to know how it is changing when you are there. If you 
don't, you can get into trouble, and that has happened. So we 
encourage that, but we encourage an open source capability 
within the U.N., and cooperation on the part of states for 
field deployments.
    Mr. Smith. Let me just ask--I think the word you used, Mr. 
Bolton, was ``platonic.'' We shouldn't necessarily assume that 
the best interests of mankind are pursued by the U.N. Security 
Council. I saw that when I was arguing in the eighties, along 
with the Administration, for corridors of tranquility for 
Ethiopia during one of the major famines, and I was 
flabbergasted by the insensitivity of some members of the 
Security Council and others, including the ambassador, from 
Ethiopia to the U.N., about that situation. It was indifference 
that I was not prepared for. It certainly was a wake-up call 
for me.
    When it comes to any future operation either by rapid 
deployment forces or in the current mode, perhaps enhanced and 
made better, where will the final decision be made? Will it 
still be the Security Council, or will that decision-making 
migrate somehow into the executive branch, for want of a better 
word, the Secretary-General?
    There certainly are precedents once you go down that road. 
We have a War Powers Act here in the United States, and it is 
not worth the paper it is written on, because time and again an 
executive will deploy, and it is a matter of what do you do 
once the deployment has happened, because obviously now men and 
women are in harm's way. Maybe it is even a good deployment.
    The point is, Dr. Durch, did the Panel suggest that the 
Security Council retain the absolute power to make that 
decision? You do talk about doing advance work in anticipation 
of the Security Council resolution. Does that also mean that 
there might be an advance deployment?
    Mr. Durch. Advance preparation, yes, in anticipation of a 
Security Council decision, but all decision-making on moving 
that force, deploying it, remains strictly with the Security 
Council.
    Mr. Bolton. I think, Mr. Chairman, the question really goes 
to the core of the U.N.'s capability for large and complex 
missions. I think that the inherent political difficulties in 
the Security Council and the manifest weaknesses of the 
Secretariat over the years--and I think these would apply 
whether the Brahimi report's recommendations were implemented 
or not. It cautions against U.N. involvement in massive, 
complex operations.
    Again, I don't really think this is a question of 
capabilities, as Mr. Delahunt was asking before. In Sierra 
Leone, the Washington Post reported recently about the dispute 
at the top of the command of the U.N. forces in Sierra Leone 
between the Indian commander and two of his senior 
subordinates, who were Nigerians.
    I am not taking sides in that dispute, but I think what is 
clear is that the Nigerian officers were representing what they 
believed to be the larger interests of Nigeria in West Africa. 
I understand why they are doing that. There are forces in--
political and military forces in West Africa, some of which 
support that role and some do not.
    But I don't think better training would have made the 
Nigerian officers less willing to advance Nigerian interests, 
or the Nigerian government less assertive in trying to use the 
U.N. peacekeeping force there and elsewhere to advance them. 
Those are issues of politics and national policy, they are not 
issues of capability.
    Mr. Smith. Let me ask Mr. Charny, in your testimony you 
obviously spoke about the rapid deployment force. What happens 
in situations like Chechnya or any other matter of ``internal 
affairs,'' so-called, that is trotted out by the offending 
country?
    In that case, there were 80,000 people killed in the 
Chechen war, and untold thousands in this second war. How do 
you see such a force working in a context like that? Or is that 
something that remains a problem?
    Mr. Charny. In my mind, it simply remains a problem. There 
is no obvious solution to an issue like that. We have already--
I am not as naive, perhaps, as Mr. Bolton would suggest. I know 
that the idea of any standing force for the United Nations 
right now is politically a rather tough sell, both in the 
United States and indeed, in many other countries.
    So I think the only way you ever get anywhere near such a 
concept is to maintain Security Council oversight and 
authorization of such a force. Therefore, by definition, that 
means if there is an internal conflict in Russia or, as there 
may well be in the next decade, serious internal conflicts in 
China, you are not going to see a rapid reaction force, even if 
it existed, zipping off to the far west of China to deal with 
ethnic tensions there, or possibly serious human rights 
violations, or whatever. It simply isn't going to happen. I 
recognize that.
    Nonetheless, we have to also recognize that as an issue, 
because what it means is that if you have deployments, you do 
tend to have these deployments in failed states, weak states, 
states which simply do not carry much political weight. Again, 
I think that is a reality that would have to be accepted or 
worked around in the political forum.
    Mr. Smith. Just two final questions.
    Dr. Durch, in the report, you say that the total cost of 
the DKPO and related support offices for peacekeeping does not 
exceed $50 million per annum, or roughly 2 percent of the total 
peacekeeping costs. Your panel recommends that that be 
substantially beefed up.
    Could you elaborate on that? How much do you think is 
needed to get the job done adequately?
    Mr. Durch. As we speak, the Deputy Secretary General of the 
U.N. is heading up a working group that is trying to come up 
with an implementation plan based on the recommendations in the 
report. When that plan is drafted, they will carefully cost 
that out. So I don't have numbers that I could give you.
    Even if one were to, in hypothetical terms, double the 
number of folks trying to give support to peacekeeping at 
headquarters, you would be talking about maybe another 50 
million at best, and the U.S. share $12 million a year.
    We think that probably great strides can be made, in other 
words, in improving the planning, the backstopping, the 
recruiting, all of these things to get ready to go into the 
field, for a relatively modest amount of money.
    Mr. Smith. Do you know when those specs are going to be 
developed?
    Mr. Durch. I am sure they are aiming to give them to the 
General Assembly in this session, so sometime later this fall.
    Mr. Smith. The report focuses on expanding the role of the 
international civilian police. Obviously, once the peacekeepers 
leave, or as they are transiting, out a good police force is 
needed to keep the order.
    Could you expand on the recommendations that have been made 
by the Panel with regard to those areas?
    Mr. Durch. Yes. We don't view the U.N. international civil 
police as the replacement for the peacekeepers, and until now 
only in two places have U.N. cops had executive authority, law 
enforcement responsibility. That is East Timor and Kosovo. 
Elsewhere they are monitors of the local police behavior.
    We think you really need to do more, that you really need 
to try and configure the mandate such that you can retrain the 
local police and judiciary according to modern principles of 
democratic policing; in other words, to make them--help them 
contribute to the security situation and to the development of 
a society--rather than go back to being politicized thugs--as 
one component of peace-building.
    What we hope is that when a mission departs, the peace-
building components--the unarmed components of the mission, the 
electoral people, people who work with civil society, the folks 
who try and jump-start some reconstruction and generate 
voluntary long-term funds to kind of segue into development--
will leave behind a stable situation so everybody can exit and 
leave behind something better than they found when they got 
there.
    Mr. Smith. I recently sent staff to the Kosovo training 
center to try to ascertain how well or poorly that was working. 
Do you have any feedback as to the efficacy of the training 
that is going on in Kosovo?
    Mr. Durch. For the police?
    Mr. Smith. Yes, for the police.
    Mr. Durch. Not immediate feedback. The basic problem is 
that there is not sufficient capacity within the system to 
implement more than a basic screening program in advance of 
deployment. There are nine personnel in the civil police unit 
at U.N. headquarters. They have the responsibility of vetting 
all of the 8,000 people who deploy. They are trying to vet them 
before they come up to missions to make sure they have 
minimally competent people. They are also supposed to be doing 
doctrine and drafting budgets and writing strategy. You simply 
cannot do all that with nine people.
    We think that with the increases for those folks that we 
recommend, they will be able to do a little bit better.
    The lack of experience with executive policing is another 
problem, and at the moment you get police from very different 
traditions brought together, with very different sets of 
procedures that they are used to operating under, and different 
law codes, maybe from 40 or 50 different countries to make up a 
force of that size.
    We hope that the kind of regional training that we are 
recommending, as well as the small core of 100 folks that could 
go out early to provide that training and be ready to go in 
advance, could remedy these kinds of problems that we face 
right now.
    Mr. Smith. Thank you.
    Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman.
    Dr. Durch, I understand that after I had left the room, you 
made a commitment to go back to those who wrote your terms of 
reference to ask that they include reparations in your terms of 
reference. Is that the commitment that you made?
    Mr. Durch. I said that I would certainly get back to the 
folks at the U.N. about the question of reparations. I can't 
commit them to doing something, as you understand.
    Ms. McKinney. I understand you can't commit them, but you 
can commit yourself. So is it my understanding that you are 
making a commitment to go back to them and raise the issue of 
reparations with them to be included in your terms of 
reference.
    Mr. Durch. I will certainly raise the issue. The Panel's 
work is finished. This issue would have to be addressed by some 
sort of a follow-on effort.
    Ms. McKinney. Okay. Many of our panelists have talked about 
getting the politics out of politics. I don't know if that is 
possible.
    The Brahimi report talks about making sure that the 
information stream from the Secretariat to the Security Council 
is a continuous flow of information, but I would say that that 
is politics. In the Rwanda report on the now infamous cable 
sent from General Dallaire up to New York, a decision was made 
by DPKO Chief Kofi Annan to not transmit the contents of that 
cable to the Secretary General, Boutros-Ghali, or to the 
Security Council.
    In fact, the Rwanda report says, ``Annan's and Risa's 
instructions to UNIMR and the caution which dominates those 
instructions show that they did realize that the cable 
contained very significant information. However, they did not 
brief the Secretary General about it, and the Security Council, 
which a week before had conditioned its continued support for 
UNIMR on progress in the peace process, was not informed.''
    The decision to not inform the Secretary General and the 
Security Council was a decision that was made by the Assistant 
Secretary General, or whatever the appropriate title is, by 
Kofi Annan, who was in charge of DPKO. That was politics. That 
was a political decision that was made to withhold critical 
information and vital information that could have saved 
hundreds of thousands of lives. That decision was made by that 
one man, perhaps in collusion with others, because I cannot 
believe that a decision of that importance would be made with 
just one person.
    Is there anything in your recommendations that can keep 
politics out of political decisions?
    Mr. Durch. I don't think there is any way you can keep 
politics out of political decisions. The U.N. is a very 
political organization, as are governments, democracies in 
particular. But what we hope can come of implementing the 
recommendations in the Brahimi report is better informed 
decision-making, better capacity for analysis, less chance for 
things to fall through the cracks.
    Ms. McKinney. This January 11 cable didn't fall through the 
cracks. I need to correct myself, the Chairman reminds me that 
I misspoke. I wanted to make sure that I am perfectly clear, 
that we want to take the politics out of peacekeeping 
decisions.
    This was a peacekeeping decision about what was going on in 
Rwanda at the time. The current Secretary General, who was then 
chief of DPKO, chose not to turn over vital information to the 
Secretary General or to the Security Council.
    So I rephrase my question: How is it possible to keep 
politics out of peacekeeping decisions?
    Mr. Charny. Maybe I can jump in and try and address this. I 
think--I am certain that probably the one thing that the four 
of us would agree on is that it is impossible to take politics 
out of this process. It is by definition a political process.
    Refugees International wants to see more humanitarian 
values, if you will, humanitarian criteria inserted into that 
political process. But a political process is inevitable, and 
no reform that any of us is suggesting is going to create a 
perfect system. There are always going to be individuals who 
make major errors that have major humanitarian consequences.
    We don't live in a perfect world. There would be no way to 
design a system, neither in the U.N. nor, quite frankly, in the 
U.S. Government, that would prevent incorrect decisions from 
being made. Hindsight is 20/20. It is very easy to look back on 
any particular circumstance and say, if X had only done this, 
then things would have been different.
    I think--again, it is not my role on the Panel to defend 
the U.N., nor, I believe, is it Dr. Durch's. There is some 
attempt to have better accountability. This rash of reports 
that you are seeing is an attempt to--in the most transparent 
way that the U.N. is capable of to own up to some of the errors 
that have been made. But to take politics out of peacekeeping 
is impossible.
    Ms. McKinney. I would suggest that accountability, yes, and 
the rash of reports that has been written, and the four 
apologies that were given in 6 weeks, they are a step in the 
right direction, but it is not nearly enough.
    I am driving right now my car on Firestone tires, and I am 
afraid that I might be the next victim of Firestone. Those 
people who made the decisions in all of the various offices to 
ignore the information that was coming through their offices 
about the problems of Firestone tires, particularly on Ford 
Explorer cars, are pretty much--I would say that the United 
Nations is about in that same league right now.
    But there is one big difference. That is, people, 
individuals who have been harmed, are holding Firestone 
accountable. If the United Nations sets itself up as 
accountable to no one and above every aspect of the law, then 
there is no possibility of reparations, of that accountability 
meaning something.
    So that is why this is critical. We can have an 
intellectual conversation about how we are going to take the 
politics out of peacekeeping decisions, but until the people 
who made those decisions that failed are held accountable and 
made to pay, just in the same way as Firestone and Ford are 
going to have to pay, then I would say that we don't have real 
accountability.
    That leads me to my next question, which is about the 
recommendation for one-stop shopping for military and police 
officers.
    I am concerned about the impact that this one-stop shopping 
will have on my ability to exercise scrutiny over what my 
government and its subcontractors do.
    For instance, I can see in this recommendation or this set 
of recommendations the ability for private military companies 
that were formerly known to be mercenary companies, but now 
they have gotten a fancier name, to become the subcontractors 
of the U.N., and the U.N. then fight wars and do other things 
that I would have no ability to understand or ferret out or 
understand the decision-making process that resulted in a 
particular deployment.
    Could you talk to me about transparency and decision-making 
and accountability in the process, so, one, we don't have 
soldiers going to places like Cambodia infecting people with 
AIDS, to make sure that the soldiers--it is alleged that in 
Sierra Leone the Nigerian soldiers are mining as many diamonds 
as the RUF; so we don't have headlines like this, ``Split in 
U.N. Sierra Leone Mission.'' Could you just sort of talk to me 
about accountability and transparency in the decision-making 
process so these things that are going wrong right today won't 
happen, and that I can have confidence in the decisions that 
are made by the U.N., the DPKO and the Security Council?
    Mr. Durch. Okay. I think with the one-stop shopping, you 
are referring to the 100 military observers that are on call 
for mission setup?
    Ms. McKinney. For instance, you recommend that each country 
have a central person or office that handles the military and 
that handles the policing.
    Well, it is my understanding that--for instance, we have 
the Haliburton Company, which has as its subsidiary Brown & 
Root; we have MPRI. They are these private military 
subcontractor organizations that are doing--right now that are 
doing the work, subcontracted by DOD and by the Department of 
State, and they are in charge of whatever it is that the U.N. 
needs in terms of providing police in Kosovo or helping to set 
up military bases in the Great Lakes, whatever it is.
    My question is, it appears to me that your recommendation 
encourages that kind of centralization and that kind of 
mercenary operation over which I as a Member of Congress would 
have no oversight. That bothers me. That concerns me.
    Mr. Durch. Okay. I think what you are referring to is the 
use by governments like the United States of subcontracting 
places like Dyn Corp for recruiting police, et cetera.
    Ms. McKinney. Absolutely. That is exactly what I am talking 
about.
    Mr. Durch. That is a chain that flows up through 
governments and then to the U.N. It is not something that the 
United Nations is governing directly.
    Ms. McKinney. So the United Nations will not then be 
subcontracting, say, for instance, to DyneCorp or to MPRI 
directly?
    Mr. Durch. Well, it is a question of whether you are 
talking about fighting forces or you are talking about 
logistical support.
    Ms. McKinney. I am talking about all of it.
    Mr. Durch. Let's talk for the moment about logistical 
support in terms of what the U.N. does. It does have long-term 
what they call systems contracts with the civilian logistical 
elements of places like Dyn Corp or places like Brown & Root, 
who can provide efficient food contracts or longer-range lift 
or those kinds of logistical support with civilian folks, 
civilian contractors. In the military, you would have military 
support units doing it. It is less expensive to do it with 
civilian contractors, especially in some of the less dangerous 
areas that the U.N. operates.
    So there are those contracts. They allow the U.N. to 
respond faster than having to go out for bids for 60- or 90-
day-tenders to get basic supplies and transport and equipment 
for their operations.
    So they have, for example, a standing contract at the 
moment with Toyota to provide 4-Runners or Land Cruisers on 
relatively short notice for operations in sort of the hundreds 
and thousands of units. Even so, it takes maybe 18 weeks for 
those to be delivered. So it is an effort at efficiency from 
the U.N.'s perspective.
    In terms of the training of troops or the training of 
police folks, that is, and using the private sector to do that, 
that is a matter for governments themselves. I don't think the 
U.N. does that directly.
    Ms. McKinney. Is that something that you could pose to your 
people? I would like to know if the United Nations is 
subcontracting or is contracting to Dyn Corp and MPRI directly 
now.
    Mr. Durch. All right.
    [The information referred to is available in the appendix.]
    Ms. McKinney. Mr. Chairman, I think I have concluded.
    Mr. Smith. That pretty much concludes the hearing.
    I just want to note for the record that we did have an 
extensive hearing back in May, on May 5 of 1998, in our 
Subcommittee. We assembled a very powerful panel of people, 
including from the United Nations and the Belgian parliament, 
to focus on the Rwandan killing.
    We paid special attention to the New Yorker expose that had 
been done on the so-called ``genocide fax.'' Maybe I will ask 
one final question of Dr. Durch, because we tried and failed to 
some extent to get very specific information with regard to who 
knew what and when, the whole line of authority.
    Obviously, when any panel looks at something, they try to 
reconstruct where the failures were in order to learn from 
them, and perhaps--although I don't think it is going to happen 
here--to hold to account those who dropped the ball, which led 
to massive slaughter.
    The information we had was overwhelming. Refugees 
International testified at that hearing, as did many, many 
others. What about the genocide fax? Will that never again 
happen under the recommendations that are being suggested by 
your panel, so that there is more than just one set of eyes, so 
that a merely political perspective does not prevail?
    When General Dellaire, your eyes and ears on the ground in 
Rwanda, says that something is imminent, as was pointed out by 
Holly Burkhalter, who had testified that day as well, you 
listen. Our own embassy had clear and compelling reporting 
about this. Killings like this do not happen usually without a 
large number of people at least being suspicious, if not having 
some timely information that could prevent or mitigate it from 
happening. Yet, have we really learned from it?
    Dr. Durch, I wonder if you might want to take a stab at 
that, and Srebrenica. Look at these profound, preventable 
mistakes that were made. We are all human, we are all prone to 
error. But it seems to me that to ignore that kind of 
information, and then to be--in Kofi Annan's case--kicked 
upstairs rather than held to account, something is wrong. If 
you could respond to that.
    Mr. Durch. Yes, sir, I would hope that the kinds of 
structural changes that we recommend would prevent that sort of 
thing from happening again.
    There was a combination of the information--the analysis at 
the Secretariat that we hope to have to look forward, and what 
we call integrated mission task forces to plan and implement 
operations, where you would actually co-locate people from many 
departments of the U.N., the refugee people, the military, the 
police folks, the logistics people, and sharing information 
that comes in from all their different feeds.
    So if you had three different groups with three different 
views on the ground of danger arising, that would go straight 
to that group and everyone would know what was going on.
    I think it would be much more difficult to drop the ball in 
that case.
    Mr. Smith. Unless any of our panelists have anything 
further, let me just thank our very expert witnesses for their 
information. It does help this Subcommittee. We do have prime 
jurisdiction, as you know, over the United Nations and the 
State Department. Obviously, peacekeeping comes under that. 
This helps us to do our job better.
    Please stay in contact with us as we go forward, because we 
do want to be very much a part of the process to reform and 
hopefully to improve the efficacy and responsiveness of 
peacekeeping.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 1:08 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 24, 1999

=======================================================================


    [GRAPHIC] [TIFF OMITTED] T9536.001
    
    [GRAPHIC] [TIFF OMITTED] T9536.002
    
    [GRAPHIC] [TIFF OMITTED] T9536.003
    
    [GRAPHIC] [TIFF OMITTED] T9536.004
    
    [GRAPHIC] [TIFF OMITTED] T9536.005
    
    [GRAPHIC] [TIFF OMITTED] T9536.006
    
    [GRAPHIC] [TIFF OMITTED] T9536.007
    
    [GRAPHIC] [TIFF OMITTED] T9536.008
    
    [GRAPHIC] [TIFF OMITTED] T9536.009
    
    [GRAPHIC] [TIFF OMITTED] T9536.010
    
    [GRAPHIC] [TIFF OMITTED] T9536.011
    
    [GRAPHIC] [TIFF OMITTED] T9536.012
    
    [GRAPHIC] [TIFF OMITTED] T9536.013
    
    [GRAPHIC] [TIFF OMITTED] T9536.014
    
    [GRAPHIC] [TIFF OMITTED] T9536.015
    
    [GRAPHIC] [TIFF OMITTED] T9536.016
    
    [GRAPHIC] [TIFF OMITTED] T9536.017
    
    [GRAPHIC] [TIFF OMITTED] T9536.018
    
    [GRAPHIC] [TIFF OMITTED] T9536.019
    
    [GRAPHIC] [TIFF OMITTED] T9536.020
    
    [GRAPHIC] [TIFF OMITTED] T9536.021
    
    [GRAPHIC] [TIFF OMITTED] T9536.022
    
    [GRAPHIC] [TIFF OMITTED] T9536.023
    
    [GRAPHIC] [TIFF OMITTED] T9536.024
    
    [GRAPHIC] [TIFF OMITTED] T9536.025
    
    [GRAPHIC] [TIFF OMITTED] T9536.026
    
    [GRAPHIC] [TIFF OMITTED] T9536.027
    
    [GRAPHIC] [TIFF OMITTED] T9536.028
    
    [GRAPHIC] [TIFF OMITTED] T9536.029
    
    [GRAPHIC] [TIFF OMITTED] T9536.030
    
    [GRAPHIC] [TIFF OMITTED] T9536.031
    
    [GRAPHIC] [TIFF OMITTED] T9536.032
    
    [GRAPHIC] [TIFF OMITTED] T9536.033
    
    [GRAPHIC] [TIFF OMITTED] T9536.034
    
    [GRAPHIC] [TIFF OMITTED] T9536.035
    
    [GRAPHIC] [TIFF OMITTED] T9536.036
    
    [GRAPHIC] [TIFF OMITTED] T9536.037
    
    [GRAPHIC] [TIFF OMITTED] T9536.038
    
    [GRAPHIC] [TIFF OMITTED] T9536.039
    
    [GRAPHIC] [TIFF OMITTED] T9536.040
    
    [GRAPHIC] [TIFF OMITTED] T9536.041
    
    [GRAPHIC] [TIFF OMITTED] T9536.042
    
    [GRAPHIC] [TIFF OMITTED] T9536.043
    
    [GRAPHIC] [TIFF OMITTED] T9536.044
    
    [GRAPHIC] [TIFF OMITTED] T9536.045
    
    [GRAPHIC] [TIFF OMITTED] T9536.046
    
    [GRAPHIC] [TIFF OMITTED] T9536.047
    
    [GRAPHIC] [TIFF OMITTED] T9536.048
    
    [GRAPHIC] [TIFF OMITTED] T9536.049
    

</pre></body></html>
